<html>
<title> - GREEN BUILDINGS OFFER MULTIPLE BENEFITS: COST SAVINGS, CLEAN ENVIRONMENT, AND JOBS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     GREEN BUILDINGS OFFER MULTIPLE BENEFITS: COST SAVINGS, CLEAN 
                         ENVIRONMENT, AND JOBS

=======================================================================

                                (111-51)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 16, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
51-111                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Crawley, Drury, Lead Mechanical Engineer, Office of Building 
  Technologies, U.S. Department of Energy........................    11
Helsel, James L., Junior, Treasurer, National Association of 
  Realtors.......................................................    11
Kampschroer, Kevin, Acting Director, Office of Federal High-
  Performance Green Buildings, General Services Administration...    11
Uhalde, Ray, Senior Advisor, U.S. Department of Labor............    11

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    50
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    51
Oberstar, Hon. James L., of Minnesota............................    53

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Crawley, Drury...................................................    56
Helsel, James L..................................................    80
Kampschroer, Kevin...............................................    89
Uhalde, Ray......................................................   106

                       SUBMISSIONS FOR THE RECORD

Crawley, Drury, Lead Mechanical Engineer, Office of Building 
  Technologies, U.S. Department of Energy, responses to questions 
  from the Subcommittee..........................................    65
High-Performance Building Congressional Caucus Coalition, 
  supplemental testimony.........................................     7
Helsel, James L., Junior, Treasurer, National Association of 
  Realtors, responses to questions from the Subcommittee.........    88
Kampschroer, Kevin, Acting Director, Office of Federal High-
  Performance Green Buildings, General Services Administration:..
      Fact sheet.................................................    94
      Responses to questions from the Subcommittee...............    96
Uhalde, Ray, Senior Advisor, U.S. Department of Labor:...........
      Press release..............................................   114
Responses to questions from the Subcommittee.....................   116

[GRAPHIC] [TIFF OMITTED] T1111.001

[GRAPHIC] [TIFF OMITTED] T1111.002

[GRAPHIC] [TIFF OMITTED] T1111.003



HEARING ON GREEN BUILDINGS OFFER MULTIPLE BENEFITS: COST SAVINGS, CLEAN 
                         ENVIRONMENT, AND JOBS

                              ----------                              


                        Thursday, July 16, 2009

                   House of Representatives
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. I want to welcome all of you to today's hearing 
with particular appreciation to our distinguished witnesses for 
their testimony. The Subcommittee will examine plans for green 
buildings and the benefit to energy conservation and climate 
change in today's world.
    Since becoming Chair of this Subcommittee, I have been 
plain that one of my priority goals is to maximize the GSA's 
outsized real estate and property portfolio to make the Agency 
the green buildings leader in the Country. My first hearing as 
Chair focused on the greening of Washington, D.C. and the 
national capital region because GSA is the leader in the office 
building market here.
    The GSA has long engaged in energy conservation efforts, 
well before climate change issues became prominent, because the 
Agency has understood the energy value and savings to the 
taxpayer. However, with a new Administration taking 
unprecedented leadership on conservation and climate change, we 
are seeking ways to build on the progress we began in the 100th 
Congress.
    We began that progress, of course, with the pathbreaking 
Energy Independence and Security Act of 2007. I am pleased 
that, among other things, the bill authorized high efficiency 
light bulb replacements, a photovoltaic provision, and the 
creation of an Office of High-Performance Green Buildings for 
the first time that is required to coordinate with the 
Department of Energy, which is focusing on green issues in the 
private sector. I am pleased that today we will hear from both 
the GSA Office of High-Performance Green Buildings as well as 
from the Department of Energy.
    As important as these breakthrough initiatives were, they 
seem timid in light of GSA's potential impact, especially on 
leasing but also on its own inventory and on the economy and 
climate change in the Nation. The President was of the same 
mind when he worked with our Subcommittee to place in the 
Stimulus Package $5.5 billion, most of it for repair and 
rehabilitation of GSA's badly deteriorated inventory. Much of 
it should be used on energy conservation. In addition, we 
achieved through the Stimulus at least the bulk of the funding 
that was needed for the first building in the new Department of 
Homeland Security headquarters compound to be located on the 
old Saint Elizabeth's west campus.
    The DHS headquarters provides a unique opportunity for the 
Government to build an entirely green set of office buildings, 
the largest construction in GSA's history. With a little 
imagination, the potential for energy conservation at the new 
headquarters is bountiful.
    Green building activities generally cover products and 
practices that conserve energy and water, promote clean indoor 
air, protect natural resources, and reduce the impact of a 
building on a community. Examples include insulation such as 
double paned windows that reduce or conserve the heating loads 
of buildings and positioning buildings in order to reduce the 
need for cooling or heating the building. Green building 
includes reduced flow toilets and low water plants and 
landscaping. Green building improves the indoor environment 
with use of non-toxic caulks and adhesive, non-formaldehyde 
cabinets, and the use of filters. Green building protects 
natural resources by promoting the use of products with 
recycled content like carpet, tile, and wallboard while 
promoting the use of rapidly renewable products like bamboo 
flooring and natural linoleum. Green building protects 
waterways like the Anacostia River and the Chesapeake Bay by 
promoting practices that reduce the impact of structure on the 
environment such as mitigating the effects of stormwater runoff 
by using green roofs, cisterns, and permeable pavers; locating 
buildings close to mass transit; and including bike racks and 
storage units.
    With GSA in the throes of redoing its existing inventory, 
or at least part of it, in all 50 States, the District of 
Columbia, and all the territories and with its emphasis in that 
work on energy conservation, along with its work now on the new 
headquarters and the Agency's own position in the leasing 
market, the Subcommittee is especially interested in new 
frontiers not only in green thinking but particularly in green 
action steps that can be taken now.
    We are interested in greening and conservation practices in 
the work we will be undertaking, for example in reusing water 
and energy in various types of green roofs, especially for our 
existing buildings. We are interested in the difference and 
value among various LEED designations in energy savings 
technology and in reducing practices that harm the environment 
in constructing and leasing near waterways.
    We, of course, want to draw on the rapidly developing data 
that allow us to compare cost to benefit and allow us to know 
cost reductions that are actually resulting. Equipped with the 
largest footprint in the private leasing market in the United 
States and with one of the most consistent presences in the 
construction market, GSA must not let these opportunities slip 
away. It is has resources at a level it has not had before at 
one time to do its work.
    Our goal is to invigorate the Federal leadership role in 
green technologies, greening strategies, and high energy 
standards in all new construction, major replacements, and 
repairs. Using its new resources, one of a kind, GSA must now 
become the trend setter it is capable of being, particularly in 
spin-off and green job creation and job opportunities during 
today's recession.
    We are very pleased to welcome today's witnesses and hear 
their testimony. We are just as pleased to hear from our 
Ranking Member, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. I 
want to thank you again for your leadership in holding this 
hearing today to examine green buildings and the Green Building 
Initiative. I want to thank the distinguished panelists for 
being here as well.
    The Energy Policy Act of 2005 and also the Energy 
Independence and Security Act of 2007 set standards for Federal 
buildings and required them to meet certain conservation goals. 
For example, these laws require energy consumption in Federal 
buildings to be reduced by 30 percent in 2015 and their use of 
fossil fuel generated energy to be reduced from 55 percent in 
2010 to zero in 2030. They are very ambitious goals. Similar 
zero net energy consumption goals for the commercial sector are 
also encouraged in these laws.
    The Department of Energy was also tasked to work with the 
private sector to identify and develop cost-effective 
technologies in order to reach those ambitious goals. The 
Office of Federal High-Performance Green Buildings was 
established within GSA and it was to coordinate with the 
Department of Energy on those efforts, to coordinate green 
building activities within the GSA, and to develop standards 
for Federal buildings across the board.
    Evidently the statutory framework enacted by Congress 
envisions increased conservation not only in the public sector 
but also in the private sector. Obviously, to carry out these 
efforts, a number of Federal agencies need to coordinate. This 
is in addition to partnerships with private sector 
organizations such as the U.S. Green Building Council, which 
established the LEED certification used to designate the 
efficiency level of commercial buildings.
    It is also very important to highlight the fact that the 
requirements set by the 2007 Act actually go much further than 
just promoting energy conservation, however. I have mentioned 
this in other hearings, that the Act sets very strict 
requirements on Federal buildings related to the reduction of 
energy, water, and material resource use; improving indoor 
environmental quality, including acoustic environments; and 
also considering the indoor and outdoor effects of buildings. 
Again, it is more than just conservation.
    Now, while steps are being taken to meet conservation goals 
including the use of LED lighting systems, advanced metering, 
insulation, weatherization, and a number of other technologies, 
the requirements under the Act extend well beyond conserving 
energy. I think it is important to note that. So I really look 
forward to hearing from the witnesses today about all of those 
requirements needed for a green building and about identifying 
where GSA is on meeting those requirements of the 2007 Act. 
Again, they are very broad requirements.
    In addition, the American Recovery and Reinvestment Act, 
the so-called Stimulus Act, passed earlier this year. It 
included $5.5 billion for the GSA Federal Building Fund and 
designated $4.5 billion for ``measures necessary to convert GSA 
facilities to high-performance green buildings.'' Now, as I 
have stated many times before, I clearly support efforts to 
reduce energy consumption and to examine ways in which the 
Federal Government can help minimize the environmental impact 
of its facilities. That is obviously a very meritorious and 
worthwhile goal. I have also stated before, however, that I 
believe that such efforts must be first scientifically based 
and proven. Technologies must be scientifically proven and 
based and done in such a way that they support American 
industries and--here is the big one--create jobs.
    I expressed concern in previous hearings that the focus of 
GSA funding, including of the Recovery Act or the Stimulus Act, 
is on greening Federal buildings instead of creating jobs. The 
two objectives clearly, in my view, are not mutually exclusive. 
But particularly with that stimulus funding, the priority has 
to be creating jobs. They are not mutually exclusive but that 
has to be the priority. We cannot lose that perspective.
    I do hope, as Acting GSA Administrator Paul Prouty 
indicated before this Committee in April, that these projects 
will, according to him, stimulate job growth in the 
construction and real estate sectors and long term improvement 
in energy efficiency technologies.
    We have seen it. We have read it in the news. It is common 
knowledge that Recovery efforts have not worked. The bill has 
not worked. We were promised that unemployment would be capped 
at 8 percent if the bill passed. We are now at 9.5 percent. In 
my State of Florida, it is 10.2 percent. We were promised the 
creation of 3.5 million jobs when in fact we have lost 2 
million jobs since the bill was enacted.
    If I was concerned before, I think there is more reason now 
to be concerned about making sure that we emphasize creating 
jobs. Obviously something went clearly wrong, drastically 
wrong, dramatically wrong with that bill, the implementation of 
the bill, or the creation of the bill.
    I am very pleased however, to have witnesses here today who 
may be able to outline for this Committee how many jobs have 
been created through these efforts. Again, I am a strong 
believer that construction does help create jobs. What 
industries have been supported? How we can reach both improved 
energy efficiency, which as I said before is very meritorious 
and needed, as well as job creation and job growth? So I look 
forward to hearing from the witnesses on these and other 
issues.
    I once again want to thank the Chairwoman for her 
leadership and for making sure that we continue to not only do 
oversight but continue to lead on these issues that are greatly 
important to our Nation. Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    We are pleased to have other Members present. I want to ask 
if they have any brief opening statements. Mr. Walz of 
Minnesota?
    Mr. Walz. I will yield back my time, Madam Chairwoman, so 
we can hear the witnesses.
    Ms. Norton. Thank you, Mr. Walz.
    Ms. Fallin?
    Ms. Fallin. Thank you, Madam Chairwoman. I am not going to 
be able to stay for the whole hearing so I wanted just to make 
a couple of quick comments. I am going to submit my questions 
for the record and they can be answered later. But I just want 
to make a couple of quick comments.
    Ms. Norton. So ordered.
    Ms. Fallin. Thank you so much. Ranking Member, I appreciate 
your time here today, too. I appreciate all of our people who 
have come to testify on the very important subject of green 
buildings and how we can assist the GSA and private sector 
facilities in becoming more energy efficient and cost-
effective.
    I am very hopeful that through this hearing we can gain 
insight into what programs we currently are seeing that are 
successful and what programs we see that may need some 
improvement. I am also very interested in how the GSA is 
implementing the cost-effective technology acceleration program 
put forth by the Energy Independence and Security Act.
    I have had some particular questions from some companies in 
my State of Oklahoma, very specifically from Climate Master in 
my district, that wanted to gain some information about a 
particular section in the Energy Independence and Security Act 
that has been implemented rather slowly. I have an interest in 
how we can use geothermal heat pumps, which I think are both 
cost and energy efficient, to meet some of the energy goals 
that are implemented in this legislation.
    I think all of us in this room agree that using efficient 
technology can lead to greater cost savings as well as 
significant benefits to our environment. As we decide which 
energy efficient ways to construct and run these buildings 
using our taxpayer dollars, we should also ask ourselves if we 
are saving taxpayers and businesses as much money as possible 
by delivering energy in an efficient manner and using the 
latest in technologies.
    As we proceed with this hearing, Madam Chairwoman, I would 
just like to have the GSA--and I may not be here at the time 
but for the record I will submit my questions--but I just would 
like to know how we are progressing in geothermal heat pumps to 
meet some of the goals in the Energy Independence and Security 
Act. I wonder if we can at some point in time have a list of 
the buildings that the GSA is considering putting the 
geothermal heat pump technology in, which ones have been 
selected, and how we are working with the industry in these 
particular sections.
    That is really all I wanted to add today. Thank you, Madam 
Chairwoman.
    Ms. Norton. Thank you, Ms. Fallin. Mr. Carnahan of 
Missouri?
    Mr. Carnahan. Thank you, Madam Chairwoman and Ranking 
Member Diaz-Balart, for holding this important hearing on the 
benefits of green building.
    I am also co-founder with Congresswoman Judy Biggert of the 
High-Performance Buildings Caucus. We have advocated not just 
for green buildings but for high-performance buildings.
    High-performance buildings incorporate the holistic systems 
approach of energy efficiencies, water savings, use of recycled 
and recyclable materials, life cycle analysis, and other 
environmental attributes into designs that are accessible, 
safe, secure, resilient, and oftentimes historically preserved. 
These high-performance buildings are not just examples of raw 
technical ingenuity, they are also inherently designed to 
decrease consumption and thus the overall cost of the building 
over the course of its lifetime.
    I believe the Federal Government should lead by example in 
the way we construct and manage our Federal building stock by 
investing in high-performance buildings. We not only help bring 
about much needed economies of scale for these technologies but 
we also support highly skilled construction workers, builders, 
architects, and maintenance engineers, just to name a few.
    By designing and building high-performance buildings, we 
reduce energy consumption and our carbon footprint. We save 
both water and raw materials. We save demolition and 
construction debris from going into landfills. Most 
importantly, high-performance building construction creates 
good paying green jobs that give workers the valuable skills 
they need to excel in a clean energy economy.
    I would like to give special thanks to the High-Performance 
Building Congressional Caucus Coalition who, at my request, 
produced detailed recommendations for producing high-
performance Federal buildings. These recommendations focus on 
requiring true life cycle analysis for the acquisition of 
Federal buildings and requiring total building commissioning 
using building information modeling and integrated project 
delivery. I would also like to ask unanimous consent that these 
recommendations be submitted for the record.
    To the witnesses before us today, I want to thank you for 
taking the time to be here before this Committee. We look 
forward to working with you and hearing your testimony.
    Ms. Norton. Without objection, so ordered.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T1111.004
    
    [GRAPHIC] [TIFF OMITTED] T1111.079
    
    [GRAPHIC] [TIFF OMITTED] T1111.005
    
    Ms. Norton. We are fortunate to have here the ultimate 
leader on these matters, the Chairman of our full Committee, 
Mr. Oberstar, whom I ask if he has any opening remarks.
    Mr. Oberstar. I thank you, Madam Chair and Mr. Diaz-Balart, 
our partner in these endeavors. Thank you for the considerable 
endeavor you have put in and the time that you have committed 
to maintaining watch over our portion of the energy bill. This 
is a down payment on the continuing oversight this Committee 
will conduct with the portions that we included in the energy 
bill to pass the House in 2008 and with our portion of 
continuing oversight of the Recovery Act.
    The Federal Government has a great opportunity to take a 
leadership role, as Ms. Norton's opening statement cited. I 
think the questions raised by Ms. Fallin are very pertinent and 
very important. I look forward to your responses. But we are 
way behind the curve of other countries on the greening of our 
economy and on doing what the Federal Government, the national 
Government, can and should be doing.
    Over 25 years ago, the province of Ontario had a program in 
which the province surveyed all of its government buildings and 
evaluated their energy needs and requirements, their cost, and 
the savings that could be achieved. It also mounted a program 
for communities, businesses, and home owners. They conducted 
energy audits all throughout the province of Ontario and made 
recommendations to home owners, business owners, and local 
governments to improve the energy efficiency of their 
facilities. They saved enormous amounts of money.
    Ontario is a big, sprawling province that covers the land 
territory of seven U.S. States. They have a unique encounter 
with winter, as my district does. The glacier retreated 15,000 
years ago but every December it stages a comeback. So it is 
very important for Ontario and for all of Canada to be energy 
efficient, particularly in the wintertime. Well, we have that 
responsibility here.
    The purpose of this hearing and subsequent ones will be to 
measure the effectiveness of the GSA's management of our 350 to 
360 million square feet of Federal civilian office space and 
those 174,000 vehicles that GSA operates annually to assure 
that we are leading, not just following but leading the way in 
energy efficiency.
    Thank you, Madam Chair. I look forward to the witness 
testimony.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate your 
leadership throughout your work in this Committee and 
especially on this new transportation bill. We are a very green 
Committee, not just a green Subcommittee.
    I am very pleased now to hear from the witnesses in the 
order in which they appear.
    Mr. Kampschroer is the Acting Director of this new Office 
of High-Performance Green Buildings in the GSA. Mr. 
Kampschroer?

  TESTIMONY OF KEVIN KAMPSCHROER, ACTING DIRECTOR, OFFICE OF 
  FEDERAL HIGH-PERFORMANCE GREEN BUILDINGS, GENERAL SERVICES 
ADMINISTRATION; DRURY CRAWLEY, LEAD MECHANICAL ENGINEER, OFFICE 
   OF BUILDING TECHNOLOGIES, U.S. DEPARTMENT OF ENERGY; RAY 
UHALDE, SENIOR ADVISOR, U.S. DEPARTMENT OF LABOR; AND JAMES L. 
  HELSEL, JUNIOR, TREASURER, NATIONAL ASSOCIATION OF REALTORS

    Mr. Kampschroer. Thank you, Madam Chair, Ranking Member 
Diaz-Balart, Chairman Oberstar, and Members of the Committee. 
My name is Kevin Kampschroer and, as you mentioned, I am the 
Acting Director of the Office of Federal High-Performance Green 
Buildings in the U.S. General Services Administration. Thank 
you for inviting me today to discuss the benefits of green 
buildings on cost, the environment, and jobs.
    GSA, through its Public Buildings Service, is one of the 
largest and most diversified public real estate organizations 
in the world. We collaborate with other Federal agencies not 
only as our clients but also as partners in developing, 
implementing, and evaluating Federal green building programs 
through such initiatives as the ENERGY STAR program.
    High performing green buildings provide the best value not 
only for the taxpayer but also to public through both life 
cycle cost benefits and positive effects on human health and 
performance. A recent study of GSA's earliest green Federal 
buildings shows energy use is down by over 25 percent and 
occupant satisfaction is up by the same amount as compared with 
commercial office benchmark data.
    More importantly, the top third of those buildings we 
studied, which use an integrated design approach, deliver 
significantly better results with 45 percent less energy 
consumption, 53 percent lower maintenance costs, and 39 percent 
less water use. Other studies of private green buildings show 
that operating costs are 8 to 9 percent lower and building 
values are 7.5 percent higher. They have 3.5 percent less 
vacancy and yield a 6.6 total return on investment, an enviable 
thing in today's economy.
    Further, their initial capital cost is not significantly 
higher. Studies in 2004 and confirmed again in 2007 document 
that green building aspects tend to have a lesser impact on 
cost than the many other myriad decisions that enter into 
building a new building.
    But sustainable design is not just about cost. Good 
sustainable design offers value in environmental and societal 
benefits. For example, a planted or green roof not only saves 
costs by lowering the roof temperature and thus reducing the 
amount of cooling needed, it reduces the environmental impact 
by reducing power usage and the associated air pollution. The 
cooler roof temperature also combats the smog-forming heat 
island effect and even lowers the costs for neighboring 
buildings. Finally, planted roofs absorb stormwater, reducing 
water pollution caused by runoff. In cities like Washington, 
D.C., which has a combined stormwater and sewer system, this 
reduces water pollution both locally and downstream in the 
Chesapeake Bay.
    The careful use of materials can reduce energy consumption 
during the manufacturing process and protect the health of 
occupants. Careful construction techniques can reduce the 
amount of construction waste that reaches landfills by 95 
percent or more. Reuse of existing structures can reduce total 
resource consumption as well as preserve our Country's 
heritage. Careful siting can make buildings perform better both 
from environmental and human perspectives. Proximity to 
transportation, for example, reduces pollution and improves 
occupants' quality of life. The key to this is holistic, 
integrated consideration of all the factors that influence 
buildings, including perhaps the most important one which is 
the decision whether to build at all.
    Much of the focus to date has been on sustainable design. 
Without design, we don't achieve the goals. For example, the 
Energy Policy Act of 2005 requires buildings to be designed to 
be 30 percent better than the current energy code. We need, 
however, to have at least as much emphasis on actual building 
performance. Beginning in 2010, GSA will require new building 
leases over 10,000 square feet to have an ENERGY STAR rating, 
which provides a valuable ongoing performance measure.
    But as has been mentioned before, energy is not the only 
component of sustainability. The industry needs to expand its 
performance measures in other areas as well. Buildings exist in 
context. They are parts of neighborhoods, communities, and 
cities. They are also tools for businesses and organizations. 
One of the key policy changes of the Energy Independence and 
Security Act of 2007 was to clearly articulate that a high-
performance green building must not just perform well 
mechanically but must perform to improve the health and enhance 
the performance of the occupants.
    A key broad measure of environmental impact is greenhouse 
gas emissions. Measuring the collective effects of an 
organization's greenhouse gas emissions allows more informed 
decisions about every aspect that affects the buildings. We 
need to look at the way we buy materials for the building, 
travel to and from the building, use the building, and how the 
building is operating. When we look at both what the building 
is doing and what is happening inside the building, we can make 
even better improvements than looking at the building alone.
    The Federal Government can, through its example, influence 
and accelerate the adoption of sustainable building practices 
and technologies across the Country. We can help do that 
through publicizing the quantitative results. The increased 
transparency of Recovery Act transactions and reporting on 
results are key to that influence. We are also working with the 
Department of Energy to establish broader benchmarking tools 
that will be open to the public and to businesses.
    The jobs created across the design, engineering, 
manufacturing, construction, and operations industries will 
bolster the green economy. These jobs will provide practical 
experience in high-performance technologies, green 
construction, and building operations. GSA has identified over 
50 different trades and professions that will participate in 
the accomplishment of GSA building projects.
    Virtually all aspects of construction are changed in some 
way by sustainable practices and principles. This ranges from 
such basic things as demolition work, where we mentioned the 
demolition recycling, the re-use and recapture of materials in 
the buildings, to avoid things going to the landfill and avoid 
the purchase in the first place, all the way to more high 
technology and obviously green economy components such as 
photovoltaic solar power systems, new lighting systems, which 
we are replacing in over 100 buildings, building controls, and 
advanced or smart meters. All of these require people with new 
training, new skills, and new contributions to the economy.
    But it is not just in construction that new green jobs are 
created. Building operators in the Government and private 
sector are unable to find enough well trained people to run and 
maintain high-performance buildings. Buildings can easily slip 
into poorer performance without proper maintenance. The 
aggregate result is an unnecessary increase in energy 
consumption. GSA is already in conversation with the Building 
Owners and Managers Association, the International Facility 
Managers Association, and others about the shortage of 
sufficiently trained building operators. We believe that GSA's 
Recovery Act projects can provide jobs along this emerging 
career pathway that will persist to the future.
    Thank you again for this unprecedented opportunity. All of 
us at GSA are excited by the contribution you have allowed us 
to make.
    I am available to address any further questions you may 
have. Thank you.
    Ms. Norton. Thank you, Mr. Kampschroer.
    Dr. Drury Crawley is a Lead Mechanical Engineer for the 
Office of Building Technologies at the U.S. Department of 
Energy. Dr. Crawley?
    Mr. Crawley. Thank you, Chairwoman Holmes Norton, Ranking 
Member Diaz-Balart, and Members of the Subcommittee. Thank you 
for the opportunity to appear before you today to discuss the 
U.S. Department of Energy's Building Technologies Program and 
the enormous potential for energy savings in the building 
sector.
    At the Department, I lead the team working through the 
Commercial Building Initiative to achieve net zero energy 
commercial buildings. Our team has been working closely with 
Kevin Kampschroer and his team at GSA on these issues for a 
number of years.
    As a resident of the District of Columbia, I am 
particularly pleased to be able to provide this information to 
Chair Holmes Norton.
    In 2008, the Nation's 114 million households and more than 
74 billion square feet of commercial floor space accounted for 
nearly 40 percent of U.S. primary energy consumption, 73 
percent of electricity consumption, and 34 percent of direct 
natural gas consumption. This gave us energy bills totaling 
more than $418 billion and caused 39 percent of carbon dioxide, 
18 percent of nitrogen oxide, and 55 percent of sulfur dioxide 
emissions in the U.S. Additionally, construction and renovation 
has accounted for 9 percent of the gross domestic product and 
has employed 8 million people last year.
    The Department's Building Technologies Program develops 
technologies, techniques, and tools as well as minimum 
performance standards for making residential and commercial 
buildings more energy efficient, productive, and affordable. 
The Program's goal is to enable net zero energy buildings at 
low incremental costs by 2020 for residential buildings and by 
2025 for commercial buildings. Achieving these Program goals 
could potentially result in consumer savings of nearly $3.4 
trillion by 2050.
    We know that buildings impact the economy beyond the 
building footprint. In electricity use, for example, flipping 
on a light switch means fossil, nuclear, and renewable energy 
must meet that demand. Buildings also impact land use through 
supporting infrastructures such as roads, bridges, street 
lighting, wires, and pipes. For example, consider water usage. 
While building use does not directly impact water, the water 
used for cooling generation plants and electricity production 
is very large.
    Thermoelectric power withdrawals accounted for 48 percent 
of total water use and 39 percent of total freshwater 
withdrawals for all categories in 2000. As a result of energy 
savings through our Program's efforts, we estimate we can avoid 
freshwater withdrawals of almost 2.5 trillion gallons per year 
by 2030.
    The Commercial Building Initiative was authorized in the 
Energy Independence and Security Act of 2007 and was launched 
in August of 2008. That Commercial Building Initiative, or CBI, 
guides and coordinates our public and private partnerships, 
looking to advance the development and market adoption of net 
zero energy commercial buildings all towards a goal of net zero 
energy use by 2025. We are engaged with building industry 
leaders through energy alliances and research partners to move 
us towards that goal. This engagement includes commercial 
building energy alliances where we are working with commercial 
building owners and operators to significantly reduce energy 
consumption and carbon emissions. Currently we have alliances 
for retailers, commercial real estate, and hospitals in place 
with more under development. We have been working with 
commercial building national accounts, which are largely 
commercial building owners' portfolios of many similar 
buildings.
    We have been working with our technical experts at the 
national laboratories to construct buildings that can achieve 
savings of 50 percent or more in new buildings or retrofit 
savings of at least 30 percent. We are also looking to select a 
building industry group, a consortium to help us disseminate 
the information on the new technologies and opportunities to 
the commercial building community.
    The Department's Building Technologies Program is using up 
to $343 million in Recovery Act funds to expand and accelerate 
research and development activities, including advanced 
building systems research projects focusing on system 
integration and control of both new and existing buildings; 
residential building design and development; work expansion to 
increase home owner energy savings through retrofit and new 
home designs; the Commercial Building Initiative, where 
projects are accelerating; and partnerships expansion for 
exemplary energy performance with major companies that own, 
build, manage, or operate large portfolios of buildings.
    The building and appliance market transformation work will 
also pursue a deeper penetration. The solid state lighting 
research and development area will be rapidly advancing energy 
efficient solid state lighting development and manufacturing.
    In conclusion, I want to thank you for the opportunity to 
appear before you today. I am happy to answer any questions. 
Thank you.
    Ms. Norton. Thank you very much, Dr. Crawley.
    Mr. Uhalde is a Senior Advisor at the United States 
Department of Labor.
    Mr. Uhalde. Good afternoon, Chairwoman Norton, Ranking 
Member Diaz-Balart, and Members of the Subcommittee. Thank you 
for the opportunity to speak with you about green construction.
    President Obama and Secretary Solis have made the creation 
and expansion of good green jobs a top priority, especially for 
economic revitalization and sustained economic growth. Green 
jobs can benefit the American worker by offering good wages, 
pathways to long term career advancement, and prosperity.
    At the Department of Labor, we are working to support green 
jobs through investments in quality labor market information 
about green jobs, investments in training and reemployment 
services to support the job growth in green industries, and 
encouraging registered apprenticeship in green industries such 
as construction and building retrofitting.
    The Recovery Act provided $500 million to prepare workers 
to pursue careers in energy efficiency and renewable energy 
industries. On June 24th, Secretary Solis announced five grant 
competitions for green jobs training. Four of the competitions 
are designed to serve workers in need of training through 
various national, State, and community entities and outlets. 
The fifth competition will fund State workforce agencies to 
collect, analyze, and disseminate labor market information 
about careers in green industries. The deadlines for each of 
these competitions are staggered throughout the fall.
    The Department of Labor is working in other ways to promote 
green jobs. We are partnering with other Federal agencies to 
support the creation of jobs and to develop pipelines of 
skilled workers in the energy efficiency and renewable energy 
industries.
    The Department's Employment and Training Administration 
plans to promote training in green industries, including green 
construction, through its regular programming programs such as 
YouthBuild, Women in Apprenticeship in Non-Traditional 
Occupations, and the Job Corps.
    The Department of Labor is also prioritizing green jobs in 
our fiscal year 2010 budget request. We propose the creation of 
a $50 million Green Jobs Innovation Fund to help workers access 
and participate in green career pathways.
    The Department's Bureau of Labor Statistics, in 
consultation with other Federal agencies, is working to define 
green jobs to capture the full range of labor market 
information in this rapidly evolving area. The Department 
funded a report by the Occupational Information Network, called 
ONET, to investigate the impact of the green economy on 
occupational requirements in current jobs and to identify new 
and emerging occupations. The study identified 17 occupations 
in the green construction sector such as welders and insulation 
workers where the demand for such workers would increase 
because of green investments but skills and tasks would remain 
largely the same. The study also identified another 19 
occupations in green construction such as plumbers, roofers, 
sheet metal workers that would result in significant change in 
their work and work requirements for these existing 
occupations.
    The ETA is also recently added green building practices to 
the existing Residential Construction Competency Model to 
include home energy audits and waste management.
    We are coordinating many of these efforts with our Federal 
partners to ensure dislocated workers, for example, are 
connected with jobs and that waste is minimized. For example, 
the Department is partnering with the Department of Housing and 
Urban Development on public housing retrofitting and with the 
Department of Education on training for weatherization work. 
The Department has begun initial talks with the General 
Services Administration to help in the greening of our Federal 
buildings by supporting apprenticeship and pre-apprenticeship 
programs in this effort.
    The Department is looking at good, sustainable jobs. The 
Bureau of Labor Statistics data show that construction and 
extension operations and occupations pay a median hourly rate 
of $18.24 per hour compared with $15.50 for all occupations. 
The increased demand for green construction and retrofitting 
work, coupled with the demand for green building materials, is 
anticipated to speed the increase for manufacturing workers as 
well.
    In conclusion, the Department will continue to work with 
the broad range of green building stakeholders to ensure that 
the benefits of green jobs are widely shared.
    Thank you again, Madam Chairwoman and Subcommittee. I look 
forward to answering questions.
    Ms. Norton. Thank you very much, Mr. Uhalde.
    Mr. Helsel is Treasurer of the National Association of 
Realtors. They actually have a leading green building here in 
the District of Columbia, which I hope he will reference in his 
remarks. Mr. Helsel?
    Mr. Helsel. Chairwoman Norton, Ranking Member Diaz-Balart, 
Chairman Oberstar, and all the other Members of the 
Subcommittee on Economic Development and Public Buildings of 
the Transportation and Infrastructure Committee, thank you for 
this opportunity to speak before you and testify on the 
multiple benefits of green buildings.
    My name is Jim Helsel and I am the 2009 Treasurer of the 
National Association of Realtors. I have been a Realtor 
specializing in the commercial sector for more than 34 years. 
Currently, I am a partner with RSR Realtors, a full service 
real estate company in Harrisburg, Pennsylvania. I testify 
today on behalf of 1.2 million Realtors who are involved in all 
aspects of the real estate industry.
    In 2002 and 2003, I served as chairman of NAR's Real 
Property Operations Committee. I oversaw the development and 
creation of NAR's Washington, D.C. headquarters, which also 
became the first privately owned; newly constructed LEED 
certified building and the first to earn the LEED silver 
designation in our Nation's capital.
    NAR is uniquely qualified and honored to offer testimony on 
the importance of green buildings. In addition to certifying a 
green building, NAR has taken a number of other important steps 
to raise pubic awareness about the benefits of green buildings 
in the marketplace. For example, NAR has established a green 
designation program to offer advanced training and 
certification for real estate professionals. We have also 
advanced important green building issues including the greening 
of local multiple listing services. By including data fields in 
the MLS with information about real properties' green 
attributes, we are responding to consumer demand for more 
information about building efficiency. We have also partnered 
with the Federal agencies to promote green buildings. For 
example, NAR and the Department of Energy worked together on a 
joint Energy Savers brochure to provide consumers with the 
facts about reducing energy use and saving money.
    We support the Subcommittee's efforts to lead by example 
with green investment in public buildings. These investments 
will help demonstrate new technologies and learning that result 
in lower cost options in the long run. NAR believes voluntary 
and incentive-based approaches such as tax credits will better 
spur consumer demand for energy efficiency. Moreover, there is 
also a need for information and education. We look forward to 
working with the Subcommittee to build on these approaches in 
the future.
    NAR's headquarters was the first privately owned green 
certified building, as I mentioned earlier, in the District of 
Columbia. Located blocks from the U.S. Capitol, the building 
was first occupied in October 2004 and was awarded the Silver 
LEED rating by the U.S. Green Building Council. NAR believes 
the best way to promote change in our society is to lead by 
example. The NAR building is our effort to do just that.
    As chairman of the NAR committee responsible for the 
development of the building, I knew we had a unique opportunity 
to demonstrate realtors' belief in green principles. For that 
reason, we set a goal to become LEED certified. While the 
building's LEED certification is a worthy goal in itself, it is 
the steps needed for certification that are creating a positive 
impact for the environment.
    We began by cleaning up a Brownfields site with a long 
history of commercial use. An abandoned gas station previously 
occupied the site and we cleaned the site of contamination from 
leaking fuel tanks. The high-performance glass wrapped building 
wisely uses the daylight to significantly reduce energy uses. 
Now, 50 percent of the building's energy comes from renewable 
energy sources. The landscape of the building uses native and 
adaptive plant species to reduce irrigation demands.
    Low flow faucets, lavatory motion sensors, and waterless 
urinals have all helped achieve a 30-percent reduction compared 
to buildings of similar size. The building is located near 
Metrorail stations and transit bus lines that have allowed us 
to achieve a high rate of transit use: 70 percent of our 
building occupants ride public transportation to work. In 
addition, showers have been installed to encourage biking to 
work.
    All these accomplishments are highlighting the building as 
part of an education campaign of its sustainable features.
    Just as NAR built a green structure to lead by example, so 
now NAR's policies support a voluntary, incentive-based 
approach to energy efficiency. We believe this will help build 
momentum in the private sector to adopt green trends. This 
provides a win-win by allowing for vigorous economic growth 
while improving the environment.
    The role of the Federal Government to encourage green 
development should also lead by example. Through the 
development of green Federal buildings, the public sector can 
create best green practices that will transfer to the private 
sector.
    During this time when the current real estate market is 
fragile and just beginning to show signs of recovery, 
additional onerous cost in the form of mandates could hamper 
our economic recovery and hurt the spread of green development. 
Realtors believe the Federal Government can do more to promote 
sustainable development by keeping the market free of mandates. 
We encourage the Federal Government to offer incentives such as 
tax credits.
    Realtors have shown that building green can be both 
proactive and a profitable process. Our experience has shown 
that current programs have been allowed to thrive, shift, and 
mold to meet specific conservation needs in geographic areas. 
NAR supports a national green building program that is flexible 
and market driven that encourages continued growth and 
sustainable construction that protects options for consumers in 
all markets; and that preserves, protects, and promotes the 
health of our environment.
    We stand ready to work with the Congress on the best way to 
implement green principles that balance needs in the 
marketplace with those of the environment. We look forward to 
working closely with your Subcommittee as legislation is 
considered.
    Again, thank you for this opportunity.
    Ms. Norton. Thank you very much, Mr. Helsel.
    What I am going to do is I am going to ask just one or two 
questions of each witness and then go to the next person. There 
may be votes. I may even have to go because the District 
appropriation is there. If necessary, we will come back. We 
will see how far we can get. There will be some time, though, I 
think before any votes come forward.
    Mr. Kampschroer, as you can imagine, this office has been 
particularly interested in your new Office of High-Performance 
Green Buildings, so much so that we saw to it that it was in 
the first groundbreaking energy bill. You couldn't be coming 
online at a more auspicious time. Never in the history of the 
General Services Administration has it had so much money at one 
time to do good.
    It has got 22 buildings here in the District alone. They 
are all across the United States, of course. I will begin here. 
They are in my Ranking Member's State. They are in every State 
of the union. They are in all four territories. I know they 
have been carefully chosen.
    Now, we have heard your discussion of what your office 
does. Now we need to know, given the fact that you have this 
opportunity with so many resources, precisely what you are 
doing. What kinds of technologies are being required in the new 
construction, for example? What kinds of strategies are being 
used? We need to know if they are being used in all 22 
buildings here and all across the United States. We understand 
it depends upon what is happening in the building.
    We are trying to get an idea of some examples of the 
involvement--if there is involvement--of your office with the 
unprecedented repair, renovation, and construction now 
underway. Would you give us some of those examples? Let us know 
how your office is involved, if it is directly involved, in the 
actual use of the stimulus funds the Congress has appropriated 
for the work of this Subcommittee.
    Mr. Kampschroer. Thank you. We are indeed directly and 
pretty intimately involved in the allocation of resources, the 
selection of projects, and the consideration of what goes into 
those projects.
    I think one of the more interesting things that we have 
done since the passage of the American Recovery and 
Reinvestment Act is to create a series of standardized 
specifications for various technologies to be included in 
buildings. We have been working with the Department of Energy 
and several of the national laboratories under the Department 
of Energy to develop those.
    Most particularly, I will highlight what we are doing with 
roofs. Every roof that was in serious need of replacement in 
the next two years we examined for four different possible 
technologies: integrated photovoltaic membranes, crystalline 
panels of photovoltaic energy production, cool roof technology 
generally, and planted roofs. All of them have standardized 
specifications that we have worked out with the Department of 
Energy as well as with our legal council. These are being used 
in every contract across the Country, both here in the District 
as well as all across the Country.
    In lighting, we have worked with the Department of Energy, 
the Pacific Northwest National Laboratory, and the National 
Electrical Manufacturers Association to develop a series of 
seven different technical specifications for different lighting 
systems. What we are trying to get across is the idea that 
lighting technology in the last 10 years has changed 
dramatically. The typical approach that you hear about from 
sort of Joe's Garage Manufacturer and Lightbulb Replacement 
Company is that all you do is you go in and you replace the 
lamp. You take out a 32 watt lamp and put in a 28 watt lamp and 
you save something.
    But what has happened is that in many of our office 
buildings you have lighting conditions that were designed on 
standards that were developed before the personal computer was 
even invented. We need to completely rethink the way lighting 
is done in the buildings.
    We need to split the systems, have just a little bit of 
light in the ceilings, and recognize that actually what has 
happened in our buildings is that we have too much light. 
Office buildings in this Country have 400 times more electric 
light today than they did in 1900. Our eyes haven't gotten 400 
times worse. We need to really harvest the daylight that is 
there.
    I remember vividly the Chairwoman coming into one hearing, 
dramatically opening the windows behind the chair, and saying 
we could really use a little bit more of the light. Of course, 
we were then seeing the CNN camera crew at the other end wince 
as their cameras no longer could focus on the Members. But that 
is very, very possible in today's environment.
    What we are finding is that even today, compared to the 
retrofits we did in the 1990s, we can reduce consumption of 
energy by half from those even good standards back then. We can 
also improve the working environment for the people there, 
reducing the amount of glare on the screens, recognizing that 
most of us spend most of the day working on devices that 
produce their own light so we don't need to add nearly so much.
    Then we need to be working carefully with the Chief 
Information Officers of those organizations to make sure that 
they are using the appropriate technologies to reduce the 
energy consumption in the management of the devices on people's 
desks. So those are a few of the examples of the combination of 
technology.
    The other thing I did want to mention is that we are 
systematically instituting a long term measurement process. We 
are working, for example, with every photovoltaic installation 
that we have to populate the Department's of Energy database 
that measures long term production and reliability of 
photovoltaics. That way, we know what technology works and what 
technology works a little bit better as we go forward. We will 
be using several different technologies so this is particularly 
important for them.
    At the same time, we start every project by going back and 
looking with a highly qualified engineering team, again, one of 
our standard technical specifications, at every piece of 
equipment in the building that could and should be 
commissioned. Again, we are following the rules that are laid 
out in the Energy Independence and Security Act for re-and 
retro-commissioning, using that as the basis for going forward 
and not only designing changes to the building's systems but 
also measuring as we go forward. We want to make sure that 
those savings are achieved.
    Ms. Norton. It looks like you are involved, Mr. 
Kampschroer. That is what we want to be sure of. These are 
important to note.
    Mr. Crawley, you have heard some of what Mr. Kampschroer is 
doing. I was interested in your testimony discussion of 
research, especially as I heard Mr. Kampschroer's testimony. 
Here we have two offices--the GSA certainly needed its own 
office given its own inventory and its own needs--but I am 
interested in the relationship of these offices to research.
    Let me indicate what my bias is. I am and always have been 
a strong supporter of the work we are doing here. But I have my 
doubts about the impact we are going to have even if we got 
everyone in the Country to do what they are supposed to do. The 
instinct of the national population is to believe in inevitable 
progress and that you are not supposed to make sacrifices. 
Therefore, in my own thinking about greening and climate 
change, I am far more interested in technology.
    I drive a hybrid car. I don't know how D.C. is so long in 
getting a plug-in car. Even that, it seems like we should be 
beyond batteries by this time. We have only begun to fight, as 
they say. But at least that is an example of where people could 
switch immediately based simply on a technological change. That 
has been within our grasp for a very long time and we just have 
only begun to use it, certainly to any significant degree, in 
this Country.
    So I think we have got to press people as hard as we can to 
do all the things we are doing. I was raised to turn off lights 
and the rest of it. But to have a kind of cosmic impact that we 
better begin to have if we are serious about climate change, we 
have got to have a view of how bad it is, how it shot up so 
quickly, and then what is really available to us.
    Now, Mr. Kampschroer is looking at advanced lighting and 
heating and the rest. On page two, you list areas of research 
of the very same kind with ventilation and air conditioning. 
With the kind of limitation on funds that we have and the 
deficit that we have, I would be particularly interested in how 
much actual sharing, particularly in the research area, can be 
done. The last thing we need to do is have one office 
duplicating the other, especially when it comes to frontier 
research of the kind it is going to take to have any 
difference, if at all, in the short term on climate change. I 
would like that difference to come while there is still an 
Earth, a planet here.
    So could I ask you about how you know whether or not Mr. 
Kampschroer, who works, for example, in the commercial office 
area that hugely overlaps with yours, whether you know even 
what he is doing? How do you envision working with him so that 
you and Mr. Kampschroer aren't spending Federal dollars doing 
the same work on ventilation or heating, particularly given the 
advanced science, advanced techniques, and frankly the advanced 
and costly personnel it takes to make any kind of 
breakthroughs? How do you avoid duplication?
    Mr. Crawley. I think we are already avoiding duplication. 
Mr. Kampschroer and my office have been coordinating for 
several years, even before the Energy Independence and Security 
Act asked us specifically to coordinate and to work together. 
Particularly with the Recovery Act funding, we have been 
supporting his work. Specifically, the expertise of our labs 
and our other consultants provide technical support.
    He mentioned lighting. We were able to produce 
specifications for the office sector, taking the knowledge we 
already had from our research, giving it to them directly, and 
understanding their needs.
    GSA has also been very supportive in the work that we have 
been doing. They are, as we have already heard, a leader in 
this area. They have helped us in establishing our energy 
alliances. In the commercial sector, Kevin and his team have 
been very supportive in helping us establish best practices 
since they know what works well and what information we can get 
out into the private sector. Also, those alliances are a way 
for us to learn what research needs to be done. Are there 
technologies in the market today that can meet those needs? If 
not, then our research will support GSA and our other Federal 
agency partners that we are working with today.
    Ms. Norton. I very much appreciate that. The funds will be 
scarce. Did you want to say something, Mr. Kampschroer, on 
that?
    Mr. Kampschroer. If possible. One of the other things I did 
want to mention is that when the national laboratories and the 
Department of Energy are looking for locations in which to do 
research in actual operating buildings, GSA typically will work 
with them to supply those buildings. Thus, we make the use of 
actual operating buildings.
    We just actually completed with Lawrence Berkeley National 
Laboratory a study on different kinds of filter materials for 
cooling systems in a building that we operate in Cottage Way. 
So they do the research and we provide the place in which to do 
the research.
    Ms. Norton. So you are the laboratory?
    Mr. Kampschroer. Yes. The guinea pigs, you might say.
    Ms. Norton. I like that. Indeed, it seems to me the GSA 
ought to have to do virtually no research. You have at your 
disposal all of the Energy labs and the advanced science, 
perhaps more so than any civilian agency. For that matter, I 
would hope that the Defense Department, which has more money 
rolling around than anybody, would be useful to us all.
    I want to ask Mr. Uhalde about these green jobs because I 
am real mixed up about green jobs. I want to make sure this 
doesn't become a racket.
    I remember when we had our first big Stimulus hearing 
asking the unions and the manufacturers about--particularly, 
was I interested in the workforce--how interchangeable the 
workforce was and the rest. I certainly recognize that at a 
certain level there would be a certain kind of training. I must 
say that they assured us that the workforce was 
interchangeable. I am sure that you have journeymen and the 
rest who are already doing this work.
    It occurs to me that much of the work does not or should 
not, in fact, take a lot of training. When we use the term 
``green jobs,'' it sounds very mysterious because it covers a 
multitude of either sins or skills that are not spelled out. So 
I am interested in the levels of jobs that we are calling green 
jobs. They would go all the way up the scale, all the way up to 
the electrician and the engineer.
    Would you start at the lowest level and make me understand 
the skill level that is necessary and whether it is so terribly 
much to do? What kind of training would it take? Help me 
understand what I mean--which I do not know--by lowest level. 
Then, to the best of your ability, go on from there to where 
you think you hit a threshold where considerable training is 
necessary. Then what are you talking about? Is it on the job 
training, school training, and the rest? Thank you.
    Mr. Uhalde. Thank you, Madam Chairwoman. The study that I 
cited in my testimony, the Occupational Information Network, 
did identify many occupations that we currently know and are 
very familiar with. They, in some sense, have what has been 
referred to as a green patina. There are aspects of the 
occupation and knowledge that are changing because of energy 
efficiency and renewable energy emphases.
    For example, you could have workers who worked in the auto 
industry in stamping plants who now can be working in the wind 
turbine manufacturing sector. They are continuing to work in a 
stamping plant are but stamping out metals for wind turbines. 
Similarly, being able to assemble wind turbines on the ground, 
maybe wind turbine assemblers are assemblers that might have 
been working in another field. It is the nature of the product 
that makes it a green job as opposed to the actual skills.
    But we are also learning, like in construction, that there 
are just certain competencies that need to be paid attention to 
that weren't before. We need much more attention to waste 
management and disposal as well as the identification and 
treatment of renewable waste products.
    Ms. Norton. But isn't that a management as opposed to a 
worker issue?
    Mr. Uhalde. But then the worker has to be given the 
knowledge and has to be able to be sensitive to the fact that 
they have to pay attention to these.
    Ms. Norton. But you don't have to be a rocket scientist.
    Mr. Uhalde. We are not talking many, many years or even 
months in many cases. For example, we are interested in career 
advancement, so maybe weatherization tasks, that is the energy 
auditing that is required and then the remediation and 
installation of weatherization products, and weatherizing 
residential neighborhoods might be considered at the entry 
level of a career latter in this. We have recently spoken with 
community action programs who are doing a lot of the 
weatherization work. The training and certification can be a 
matter of three or four weeks for energy auditors in that work 
area.
    Ms. Norton. Is there anybody that certifies any of these 
people who are all going to now say they can do green job 
training?
    Mr. Uhalde. Well, what they certify in this case is 
weatherization, both energy auditors and into the area of 
remediation and installation of weatherization.
    Ms. Norton. It is important what you said about how you are 
usually referring to the job as opposed to some set of skills. 
I recognize that when we get into some of the areas we have 
been discussing, obviously, you are talking about some 
specialties, people already have the skills but need to get a 
little more knowledge and information. I just want to make sure 
that everyone understands that a lot of this work, and I think 
the majority of this work, is not very advanced.
    Mr. Uhalde. That is correct. Some of it is not and it is as 
I said, putting a green patina on existing occupations. But 
others like environmental technicians and stuff are very much 
growing occupations. There are two year community college 
programs and certificates. They are very important as 
augmentations to engineers and water quality technicians and so 
forth.
    Ms. Norton. We want to encourage people to pursue those 
growth occupations. We, of course, are particularly interested 
in the Stimulus funding for jobs that can be done now. That is 
the reason for my question. You don't have to go to school to 
get many of these jobs or you go to school for a short time and 
it is worth that training.
    Mr. Helsel, when your building was going up, I thought it 
was sent from heaven. I can tell you as a native Washingtonian, 
that strip of land, if anything, was seen as a throw-away 
strip. There was a little park on one end but it was so oddly 
shaped that no one would have thought, frankly, that what would 
ever replace it would be a building. Its shape did not invite a 
building. But you have changed the entire environment by 
placing a building there.
    I would be particularly interested in why you chose this 
space. Since the building has been up, I remember I went to the 
opening of the building, almost ten years ago, is it?
    Mr. Helsel. It was 2004, ma'am.
    Ms. Norton. You may be able to talk to us about savings you 
have already seen and when they began to kick in. I understand, 
for example, there has been some water reduction but there may 
be others. If you could, speak about this first green building 
in the Nation's capital.
    Mr. Helsel. Thank you, Madam Chairwoman. First, I would say 
that when we set out to find a new home for the National 
Association of Realtors, we did so with a number of criteria. 
One was that we wanted to be fairly close to the Capitol. We 
wanted the legislature to see that we were serious about doing 
what we wanted to do, which was to be in the Nation's capital. 
That occurred when people were still not sure how much they 
wanted to build after 9/11, frankly. We started this process 
right after 9/11. When the building went into service in 2004, 
it was significantly after that. It was after a lot of work.
    We also wanted to go to an area where we thought we could 
help the neighborhood. As you have said better than I could, 
that neighborhood needed some work done in it. I think it was 
with a little bit of help from people like you in the District, 
from the District of Columbia itself, and from the Realtors 
that we saw the advantage of taking a site that maybe some 
people did not want to touch by virtue of some things like 
Brownfields.
    We thought we could not only help the environment and the 
neighborhood geographically, but we could do something that the 
Realtors could be proud of as well. We could say look what we 
have done for our Country as it relates to environmental issues 
and things like that. So there were a number of things that 
went into that.
    I will be honest with you: When we started the process, we 
didn't start the process thinking we would go with a LEED 
certified building. It was shortly after we got on site, 
purchased the land, and began to do work that we decided that 
was the right thing to do. We made the decision at that point.
    To your question that relates to savings, I think I said in 
my testimony that we save somewhere in the neighborhood of 
about 30 to 31 percent in water savings a year. We gather water 
off the roof and off the flat surfaces of the property, which 
we keep in underground tanks. We use that for rewatering of 
plants and things like that both on the rooftop terraces as 
well as on the surface of the land around the building. We also 
do things like waterless urinals. We have flow restrictors on a 
lot of things. We have done a lot of things like that from a 
water standpoint that have been very beneficial. It is about 30 
or 31 percent.
    We also did some things with electric that were 
interesting. There was a lot of discussion a little bit earlier 
about lighting with buildings. We actually have taken our 
building and, as some of you know, the building is enveloped in 
glass. We have taken not just the natural ambient light from 
the outside but we have also decided that we can't just have 
ambient light. We need to be able to adjust lighting based on 
what people need in their workstation areas. That building is 
set up more in workstations than it is in private offices, 
though there are both. So we use light sensors in the building.
    You will find that the lights in those buildings rise or 
fall in terms of brightness based on the ambient light that 
comes in from the outside, which has been a great savings from 
an electrical standpoint. You don't see the difference; you 
don't notice the difference when you are sitting in your 
cubicle. But it occurs on a daily basis, whether it is cloudy, 
whether it is light, whether you are on the east or west side 
of the building. We have done some things like that that have 
been helpful as well.
    I would say, if you said to me what is the overall savings 
we gain on an annual basis, probably somewhere between 12 and 
15 percent over the operational costs of what it would have 
been had we not gone LEED certified. It varies a little bit 
depending upon the year, depending upon what happens with 
weather inside and outside. No matter how well we have 
enveloped the interior of the building, the exterior weather 
certainly affects what happens. So from a practical standpoint, 
I am comfortable saying 12 to 15 percent on an annualized 
basis. That figures in as well the 30 percent on water so it is 
kind of a blended rate, if you will.
    Ms. Norton. So these systems are paying for themselves?
    Mr. Helsel. They are. Our estimates were when we built the 
buildings that most of the systems would repay themselves in 
either three to five years or five to seven years. That is not 
totally true of everything but it is a good average for what we 
did.
    Ms. Norton. That payback is so demonstrative; it is so 
compelling that I don't see how you could build an office 
building without it today. Of course, you didn't know in 2004 
what we know today.
    Mr. Kampschroer, I heard you testify as well as Mr. 
Crawley, but let me ask Mr. Kampschroer about what we are 
doing. Then I am going to go straight to Mr. Diaz-Balart.
    You talked about over-lighting. Now, you have got this 
magic opportunity with the DHS building. I hadn't even heard of 
this in an office building where there are kind of self-
adjustments based on the lighting.
    We just got in the Capitol a system where, if you step into 
a hallway, they can feel you or see you and then the lighting 
comes up a little bit. That is where we are. I don't think 
anywhere in the Capitol is the light adjusted based on the kind 
of outside lights you have and the rest of it.
    So I am going to ask you, when you are doing lighting, have 
you any knowledge of this system installed in 2004 when you are 
doing the 22 buildings here and the buildings across the United 
States with the over-lighting? Are you using these light 
sensors, for example, that were just described by Mr. Helsel, 
who was one of the first LEED buildings?
    Mr. Kampschroer. Yes, we are. In fact, it is part of our 
standard specifications that we use variable ballasts. For 
every light fixture or light luminaire in the ceiling that is 
within 15 feet of the exterior window, they have an adjustable 
ballast that performs exactly was just described.
    Ms. Norton. On their own, self-adjusting?
    Mr. Kampschroer. Self-adjusting. Furthermore, we even have 
one installation that we are using as part of our standard 
specifications when we can where the lighting is tied to 
individual occupancy. You just described walking into a room 
and the room lights go on. What we are talking about here is 
the individual desk being tied into the control system so that 
if I am not sitting at my desk, the lights automatically go off 
no matter what is going on, person by person. Then furthermore, 
we allow the individual person to override what the controls 
say. If they happen to be doing work where they need more 
light, they can turn it on. Or, as frequently happens in my 
office, I override the controls and they go off.
    Ms. Norton. Excellent. I just wanted to make sure we were 
at least current with 2004 and Mr. Helsel.
    Mr. Diaz-Balart?
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. I think this 
has been fascinating. It is just amazing cutting edge 
technology, which obviously is very exciting.
    By the way, Congresswoman Fallin did, I think, submit some 
questions to the Chairwoman. If you all could have a chance to 
look at those and make sure that she gets a response, we would 
greatly appreciate that. Thank you. We just have to take care 
of that house cleaning part first.
    I am going to go back to, frankly, a very basic issue. I 
keep harping on this but it is pretty evident why I keep 
harping on it. I don't have to tell you all where we are in the 
economy.
    This Congress and the Administration charged another $780 
billion on our children and our grandchildren because it is 
money that we don't have. With interest rates, it is over $1 
trillion to create jobs. That was the explicit reason for that 
bill. That was, remember, on top of $1 trillion for TARP. That 
was on top of half a trillion dollars for the Omnibus. That was 
on top of the billions and billions to keep the auto industry 
from going into bankruptcy, which didn't work because they went 
into bankruptcy anyway.
    We know that despite all of that, unemployment is now at 
9.5 percent, not at the 8 percent we were told it would be 
capped at. Millions of Americans are working part time jobs or 
less hours because there are no full time jobs available. So I 
am not apologetic about going back to this one issue, which is 
jobs.
    Now, I have two questions on that. I heard both in written 
testimony and in the testimony today that the Bureau of Labor 
Statistics is now working to define green jobs. So here is a 
question that kind of jumps out at you: How are Labor, GSA, and 
other agencies even measuring the number of jobs created by 
this funding if we don't even have a measurement of what those 
are and how to define them? How was Labor able to determine the 
type of training needed for these green jobs when we don't even 
have a definition of what those green jobs are yet?
    Mr. Uhalde. Mr. Diaz-Balart, when I said the Department's 
of Labor Bureau of Labor Statistics is working to define green 
jobs, they have requested in their 2010 appropriation funds to 
be able to systematically identify and count over time on a 
quarterly basis green jobs, both the industries and then 
occupations, and the number of people working in those 
occupations. This will be over time, across the Country. We 
want to be able to identify by geography where these are and 
what the concentrations and distribution of those jobs are.
    But in terms of doing, for example, the job training that 
we have put out, we have a working definition of green jobs 
that we are using and that people are using. We had a 
discussion just a moment ago and you heard about certain craft 
and trade occupations that are developing green aspects to 
them, but also that there are applications of current jobs in 
new industries. For example, if we are hooking up smart grid 
systems around the Country in west Texas, the Dakotas, and 
elsewhere, the line installations and stuff are contributing to 
more inexpensive and efficient energy production by hooking to 
wind turbines and the like. But much of the work that is being 
done is by line installers and repairers that have existed 
before.
    So what we will do over time is to decide whether and how 
to define these as green jobs or not and how many to count. But 
in practice, what the Recovery Act has done is incentivize more 
of that activity. For now, we need more workers to train in 
those areas.
    Mr. Diaz-Balart. Let me ask you, do we have any idea of how 
many jobs, just jobs, green and otherwise, have been created 
with the funds from the Recovery Act in your areas and how many 
are projected? This is something that the Chairwoman has always 
been very emphatic about, making sure that we can track those.
    Mr. Uhalde. Well, we don't have the estimates of green 
jobs. But the Administration, early on for the Recovery Act, 
estimated that 3.5 million would be created or retained by the 
last quarter of 2010.
    Mr. Diaz-Balart. I understand that. They also said that 
unemployment would be capped at 8 percent. We are way beyond 
that. We have lost 2 million jobs since the bill passed and 
unemployment is now way above the 8 percent.
    But that is not my question. My question is do we know how 
many jobs in your areas with the Stimulus money have actually 
been created?
    Mr. Uhalde. We are going to count and report. We just got 
our first report from our Department of Labor expenditures. The 
first report, I think, for almost all of Government is July 
15th. So all the States have reported as of yesterday their 
first expenditures on that. We will start doing that on a 
monthly basis starting this month.
    Mr. Diaz-Balart. Great. Thank you. Thank you so much. Thank 
you, Madam Chair.
    Ms. Norton. Thank you very much. The Ranking Member is 
right. He mentioned a favorite of mine, which is jobs. It is 
also a favorite of the Administration. It is the whole point of 
the Stimulus funds. The second priority, of course, was energy 
conservation.
    Going to jobs, let me tell you, Mr. Kampschroer, I had a 
discussion with a high official a couple of weeks ago at GSA 
after I had labored to get specific funds, albeit only $3 
million, placed into the stimulus package for pre-apprentice 
and apprenticeship programs. There was no action, even though 
some of this work isn't begun, that he was able to tell me had 
been taken. I began to rattle off common sense things to do 
without knowing what to do.
    Meanwhile, at the last big hearing that the Chairman had 
here on Stimulus jobs, I asked the Department of 
Transportation, which has a comparable labor force, what it was 
doing. I asked them if necessary to work with GSA. The Federal 
Highway Administration now has more money--$20 million, that is 
not a lot either--but it has got a two-pronged approach going. 
It has solicited proposals. Its Office of Civil Rights has 
jurisdiction.
    Let us be clear why. This industry, the construction 
industry, was once and is no longer, I am pleased to say, the 
most segregated industry in the United States. It was not 
because they set out to be that way, but because they had a 
father/son/nephew way of doing jobs. People who weren't nephews 
or sons, mainly women and people of color, simply were not in 
the industry at all. The courts took action. The Federal 
Government, along with the industry and Labor, set up a very 
good labor management Government enterprise. It was abolished 
in 1980 after it got a generation of no appreciable systematic 
addition of minorities and women to this workforce.
    Meanwhile, the workforce is aging out. Before the collapse 
of the economy, there were actual shortages of journeymen, for 
example, in most of the trades. So I was heartbroken to hear 
that the GSA had been so slow. They know my priority on this 
issue. They also know I worked very hard to get them the 
biggest project in the Stimulus package.
    So I have got to ask you, where is GSA on its decision 
about how to incorporate the funds that were specifically 
appropriated to the GSA for pre-apprentice and apprenticeship 
training of people who have not had access to such training in 
the Country?
    Mr. Kampschroer. Thank you. First of all, our memorandum of 
understanding between ourselves and the Department of Labor has 
been completely executed at the beginning of this month.
    Ms. Norton. You're what? I am sorry.
    Mr. Kampschroer. We have a memorandum of understanding 
between ourselves and the Department of Labor which identifies 
who is doing what within our programs to identify both 
apprenticeship and pre-apprenticeship programs, to make sure 
people are properly certified to do them, and how best to apply 
the funds across the Country. We are currently identifying 
projects and locations on the spending plan that we submitted 
earlier.
    Where registered apprenticeship programs already exist, we 
expect a complete report on that by the end of next week. For 
every project that we identify on the list, the construction 
contractors will be required to maintain the apprenticeship 
program throughout the duration of the construction of those 
buildings. We have already developed contract language and 
provisions to encertain those contracts modeled on those that 
have already been successful in the national capital region of 
GSA.
    We are meeting with the Department of Transportation on the 
31st of July to find ways of optimizing our resources and 
contract vehicles to more effectively implement apprenticeship 
programs in GSA and to see if we can't have some kind of cross-
fertilization between the two agencies.
    We have hired a consultant to help identify State and 
community based organizations that currently offer pre-
apprenticeship programs including on the job training, 
classroom training, and work/life training that assist us in 
developing new pre-apprenticeship programs in areas that are 
deemed most needy across the Country and are located where we 
have Recovery Act funded projects. We expect the initial report 
on how we are going to design that by, again, the end of next 
week.
    That is sort of the nutshell version of where we are today. 
We would be happy to provide further detail if you desire.
    Ms. Norton. The Chair expresses her profound disappointment 
in what I have just heard. If you had a lot of money, I could 
understand the bureaucratic approach you have taken of first 
let us consult with the Department of Labor. The Department of 
Labor knows a lot and it has a lot of money to do what it is 
going to do. You got three million lousy dollars.
    The notion of treating that $3 million as if there needs to 
be some Government-wide consultation as opposed to forming a 
taskforce of some kind to consider, because you know exactly 
why these funds were put in and you know the embarrassment to 
the Country when people go out on these jobs and see that there 
are not people trained to do the jobs, it makes sense for you 
to have consulted with Labor, but I don't see how that could 
have kept the GSA from looking at its own, given the small 
amount of money and the need to spend it with the summer coming 
up. That is the prime building season and you have now wasted 
half of it while you consult.
    Let me tell you, I don't know why the Department of 
Transportation has been able to get up and running so much more 
quickly, but it may be because the Civil Rights people were in 
charge. They understood why this money is in there in the first 
place. There are millions of Americans who aren't trained to do 
this work, even at the lowest levels. Pre-apprenticeship is 
necessary in order to get them even a foothold in the 
apprenticeship.
    The national capital region program is irrelevant. It is a 
certified apprentice program. I am grateful for it. But it is a 
program merely to make sure that if you are an apprentice on a 
Federal job here, you are a certified apprentice. It keeps 
jackleg apprentice programs from occurring in the national 
capital region. It has absolutely nothing to do with the $3 
million, which are training funds. Even looking at that program 
shows me that the Agency has not paid attention to the purpose 
of the funds.
    It is very, very disappointing to me. It was not easy to 
get these funds. I am not going to go on longer except to say 
that I already spoke with a high level official. With so few 
funds, all this consultation is make-work. If he identified the 
Agency's goals and then went to the Department of Labor and 
said these are the kinds of places we are thinking about going 
and we are thinking about going there because there is a 
critical mass--why would you want to do it in the first place 
if you are only doing a tiny bit of Federal work--but there is 
a critical mass of work to be done here and we don't want to 
duplicate what Mr. Uhalde has much more money to do, just as 
you are coordinating with Mr. Crawley, at that point, when you 
understood what you were doing and the options available to 
you, it make all the sense in the world to make sure you 
weren't duplicating what you were doing.
    This has to be done by, yes, consultants. But this is a 
pittance of money.
    Let me tell you how disappointed I am and what I am going 
to do about it: I would like the appropriate officials to meet 
personally with me, Committee staff, and my staff in my office 
no later than next week. Next week, I won't set the date. I 
have no idea what is the best date even for me. But whatever 
date that is, that is the best date for GSA to come in. There 
has got to be something on the ground.
    We are talking about on the job training. Most of the money 
should go into pre-apprenticeship programs. That program has to 
do a lot with making sure that you clear the decks of people 
who don't even understand that an apprentice program, to be 
successful in it, you have got to be able to get up and be to 
work at 7:00 in the morning. You have to work in the heat of 
the day and you have got to be able to go to work when it is 
very cold. A lot of it has to do with training an entirely new 
workforce of people who have not been exposed.
    To the extent that we are sitting around trying to see how 
many boxes to check off before we begin to spend what amounts 
to two cents, that is all we got, and we are now into the 
middle of July and we are not even started in one place even 
though this area right here is rich with opportunities? Yes, 
they have got to be spread all over. Staff told me there was 
even some consideration of taking this $3 million and daubing 
in here, there, and around the Country. If you only have $3 
million, you have got to look at where it can be most 
beneficially spent given the Congressional intent and the 
amount of money. So to act like you can do 50 States, the 
District of Columbia, and the four territories with $3 million 
is so pitiful that I am angry, frankly.
    You ought to know I would be angry. I have called you 
personally. So I want the meeting in my office. I want your 
preliminary thinking. Talk with the Department of 
Transportation. Find out how they were able to do it so 
quickly. Don't come in as a blank check about which Federal 
office you are now talking about. Come in with some ideas of 
your own. We will work with you. There has got to be a program 
of some kind.
    Let me be clear: What is today? What is the date of today?
    Mr. Kampschroer. The 16th of July.
    Ms. Norton. Guess what? August the 1st, there has got to be 
some apprenticeship work being done with that $3 million. So 
get yourself geared up.
    This was February. You knew there was going to be a pre-
apprenticeship program before February, before the bill was 
even passed.
    The Ranking Member has talked about where the jobs are. 
Well, that is a fair question but it takes time for the jobs to 
roll out. There is a lot of pressure to get the jobs out. But 
it doesn't take a lot of time to put a training program in 
place that does not require anything but the preparation for 
people for on the job training.
    I am profoundly disappointed and will not stand it another 
moment, not another moment. Be in my office next week and on 
the ground somewhere by August the 1st.
    Mr. Carnahan?
    Mr. Carnahan. Thank you, Madam Chairwoman. I am pleased to 
be here and to see the work that this Committee is doing with 
regard to green buildings. I wanted to, again, thank the 
members of the different Departments and the representative 
from the realtors for being here.
    I wanted to start off with a question for Mr. Kampschroer. 
Unfortunately, some high-performance building systems can cease 
working as they have been designed over time, largely because 
they don't receive proper building management operations or 
maintenance. You have touched on this point during your 
testimony. We have talked about this before.
    Do you have any estimate on what percentage of facility 
managers within GSA are properly certified?
    Mr. Kampschroer. I don't have a good percentage because 
there isn't a standardized, nationwide certification program 
that really deals with this technology. One of the things that 
GSA has done in this area is that we have worked with Penn 
State University to develop a program for GSA employees. In the 
last couple of years we have trained nearly 700 people in 
various aspects of high performing buildings.
    But we do recognize that this is an industry-wide 
phenomenon. I mentioned in my statement the Building Owners and 
Managers Association and the International Facility Managers 
Association. There are also private firms like the Hines 
Development Company who have internal training programs. They 
have indicated their willingness to work with us on some kind 
of more significant certification program.
    But I think that this is an area that the industry as a 
whole is lacking in. It is one of the reasons that, for 
example, in the Energy Independence and Security Act there is a 
requirement to recommission buildings every four years. We 
found that in four years, as you mentioned, buildings get out 
of tune as it were. One of the things that we are doing to 
ensure that doesn't happen with this unprecedented opportunity 
is to make sure that as we put in the smart meters we have 
constant monitoring systems going on. So, at the very minimum, 
we can find out with early warning systems when things are 
going out of tune and apply some greater expertise in there.
    But I think it is an area where we could incorporate 
community colleges. We could really look at a longer term 
program that would yield not just green jobs but also a career 
path that doesn't exist today. There are all kinds of levels of 
work in buildings, from changing filters, which requires, as 
the Chairwoman says, very little training, to actually retuning 
and making sure that the control systems in buildings are 
tuned. That, in many cases, requires significant programming 
and engineering experience to understand what you are doing and 
to make sure that it continues to work.
    Mr. Carnahan. So, if I understand this correctly, the 700 
you mentioned are facility managers that have had at least some 
level of training that the GSA has sponsored internally.
    Mr. Kampschroer. Yes.
    Mr. Carnahan. How many facility managers are there 
nationwide? I am trying to get an idea of how many people have 
been through this kind of training.
    Mr. Kampschroer. That is the significant majority of the 
people who are GSA employees. But we should recognize that 
about 96 percent of this work is actually done through 
contract.
    We are at the moment changing our contract specifications 
to increase the requirements for training and certification of 
training. But that hasn't gone into place yet. That is a thing 
that we need to be doing more of. We have recognized that and 
we are tying, again, to work with the institutions to figure 
out what the best requirements are that are both available and 
achievable but also effective.
    Mr. Carnahan. Tell me what kind of time line the Agency is 
on to get those kind of mechanisms in place.
    Mr. Kampschroer. If I could, I would get back to you with 
that when I have the accurate information. I don't have that 
with me.
    Mr. Carnahan. If you could provide that to me and the 
Committee, that would be very useful. I appreciate your 
acknowledgment of this in terms of the operational expertise 
and training for buildings as we are improving their 
performance.
    The next question I had was for Mr. Crawley. You mentioned 
the High-Performance Green Building Consortium under the 
Commercial Buildings Initiative at DOE as a DOE/private sector 
effort to advance technologies. But I understand that DOE has 
yet to recognize the participating groups. Can you give us an 
update on the status of those partnership programs?
    Mr. Crawley. Yes. There was a solicitation from the 
Department out six or eight weeks ago. That closed on Tuesday 
of this week. We will be looking to make a selection in the 
next few weeks.
    Mr. Carnahan. What would be the process beyond that point?
    Mr. Crawley. At that point, the consortium that is selected 
through the competitive solicitation is actually contractually 
working with the Department. We will be working with them to 
set a program of work over the next few months and the contract 
is put in place. Recognized corsortia will also be put on our 
website.
    Mr. Carnahan. Thank you. I will look forward to seeing that 
up and going.
    Back to Mr. Kampschroer, I would like you to share with us 
what has been your experience with using energy saving 
performance contracts and how we can increase their use within 
the Government sector. We have heard some success stories about 
those being used here and overseas in terms of Government 
entities being able to basically at no up front cost be able to 
have these companies come in and retrofit buildings. Part of 
the cost savings from the energy use is passed on to the 
Government entity and part goes to the companies that are doing 
the work. I want to see what kind of opportunities there are to 
use this mechanism to begin to retrofit our buildings.
    Mr. Kampschroer. Thank you. Energy savings performance 
contracts and their twin with utilities, the utility energy 
savings contracts, have been used in GSA for more than a 
decade. We currently have 52 active energy savings performance 
contracts and utility energy savings contracts across the 
Country with a total investment amount of over $200 million and 
an annual BTU savings of one million million BTUs through the 
use of energy savings performance contracts.
    The Department of Energy has recently established a new 
contract with a greater number of firms, 16 firms, under the 
Super ESPC contract. Those are for large jobs. GSA, though its 
schedules program, is establishing some of the energy 
performance features into the schedules that we already have 
for energy contracts that will deal with the smaller jobs that 
other agencies may have.
    We are currently negotiating energy savings performance 
contracts that are in conjunction with Recovery Act spending 
where we have decided where the best use of the Federal dollars 
is. Then firms are being solicited to do additional work with 
private financing so that we get the best total energy 
conservation in the building.
    The key to all of this is solid negotiation with good 
technical backup. We use technical backup from the Department 
of Energy as well as some that is privately contracted directly 
with GSA to ensure that we have got the best engineering 
reports on hand. For Recovery Act projects, as I mentioned 
before, we are doing an independent commissioning of the 
building first, which gives us even better baseline information 
before we even go into negotiations with the energy services 
companies.
    We have also dealt directly with the Association of Energy 
Service Companies to try and encourage them to propose not just 
the short and easy low hanging fruit, or as Secretary Chu says 
the fruit on the ground, but rather to really give us the 
proposals that stretch the limits of capabilities that are 
available in the technology but that also will give us the most 
durable benefits over time.
    Mr. Carnahan. Is this being done, in terms of vetting these 
firms and getting them involved, is that being done centrally 
here or is that being done throughout the various GSA regions 
in the Country?
    Mr. Kampschroer. The individual contracts are negotiated in 
the various regions around the Country. However, the contracts 
are reviewed in the national office before award for two 
overriding reasons. First of all, we want to make sure that the 
engineering is adequate and we have gotten the best possible 
deal for the Government. Number two, we want to make sure that 
the asset value is actually being increased by the performance 
of these contracts and that we have the appropriate measurement 
criteria as we go forward.
    I have one other point. The pre-qualification of all of the 
firms was done nationally by the Department of Energy in the 
ESPC program. So every firm we deal with is already pre-
qualified and has a negotiated contract. So we are in essence 
issuing task orders under a master contract.
    Mr. Carnahan. Thank you.
    The next question is really to all the participants. It is 
related to what I believe is a fundamental problem with how we 
manage the construction and maintenance of our Federal building 
stock. As you all know, we have a Congressionally approved 
budget for acquisition and a totally separate budget for yearly 
operations. Often the responsibilities of these budgets are in 
two separate organizational elements with different leadership 
and reporting responsibilities.
    This means that any investment in innovation that increases 
our acquisition cost, while substantially reducing the long 
term cost of operations, is not considered. This is a 
fundamental dichotomy. I believe it creates a misalignment 
between setting goals for high-performance buildings and 
achieving these goals.
    There is no short answer for this but I would like to ask 
each of you to comment on this dichotomy and whether you have 
any thoughts on how this can be better coordinated. We will 
start with Mr. Kampschroer. We will go from you and then to 
your left.
    Mr. Kampschroer. This really is a no short answer question. 
I wish I knew the answer to it because then I would be 
advocating it right here and now. I suspect it is going to 
require a combination of the Executive Branch and the 
Legislative Branch working together to figure out a different 
way to handle the dichotomy that you point out.
    One of the things that has happened that I think improves 
the situation, and it actually came from this Committee into 
the Energy Independence and Security Act, was the lengthening 
of the time over which we can make life cycle cost analyses 
from 25 to 40 years. That enables us to make better sets of 
decisions, especially for those pieces of technology that have 
a longer life span as well as for those components of buildings 
like the envelope, windows, roof, and so on that last longer 
but increase capital. As Ms. Fallin mentioned, geothermal 
ground source heat pump systems, which have a significantly 
higher capital cost, certainly pay off in lowered operating 
costs and lower energy consumption over time.
    I am not exactly sure, in a nutshell, what the right answer 
is. But it is some way of linking the two budget activities.
    I think another key is changing the measurement systems for 
the people who are in charge of projects. If today we measure 
only the budget and the schedule of the capital, you are 
inherently not going to measure the long term effects of the 
building. We have to have that feedback loop of the long term 
effects to make sure that in fact decisions that are made 
during the course of the project are those that will yield the 
greatest overall benefit and not the greatest short term or 
initial cost benefit.
    One of the things that we have proposed to bridge that gap 
in GSA's budget this year was a line item in the budget that 
would allow us to apply it without regard to the original 
budget cost to, say, a project that started without a 
geothermal system, for example. We could say that actually this 
makes a lot of sense and it should have been designed in 
originally. It wasn't in the original budget so let us add it 
in. This gave us sort of a flexible funding mechanism that 
could be applied to projects, regardless of the initial budget, 
to improve the long term benefits. That is in this year's 
appropriation request.
    Mr. Carnahan. Thank you.
    Mr. Crawley. Thank you. The dichotomy you are talking about 
for the Federal sector is also there as well for the private 
sector. We see a lot of organizations that have that same 
problem where the operation budget is separate from the capital 
budget. So it is very difficult for them to make decisions.
    The ones that are most successful have combined those. I am 
thinking of a national grocery store chain where the people 
responsible for construction of new stores, and they were 
building many new stores every year, also were responsible for 
the operation maintenance of those stores. So they knew the 
decisions they made in construction would make an impact. They 
were also responsible for reporting to the CFO and their 
chairman on operating costs. With very low margins in the 
grocery sector, an energy impact was taken very seriously 
because it affected their bottom line.
    Like Mr. Kampschroer, I don't think there is a simple 
answer. But the ones that are looking at it in a comprehensive 
bottom line aspect when they make a capital dollar investment 
today including what are the long term operating aspects of 
that and can they improve, are really the ones that are being 
more effective.
    Mr. Carnahan. Thank you. Mr. Helsel.
    Mr. Helsel. I agree there is a dichotomy and no, I am not 
sure I agree with Mr. Kampschroer approach on this issue. I 
think there is a dichotomy. I absolutely agree with him there.
    I will tell you what we do in the real estate business. We 
are really talking about managing real property right now, as I 
understand it. We look at both our operating budget and we look 
at our capital budget. We decide what we can do with the 
capital budget based on what the operating budget is allowing 
us to do based on how much money we make, frankly, on a 
building. Private industry would say that works well if you 
watchdog your buildings well. If you don't watchdog your 
buildings well, it doesn't work so well.
    So the dichotomy that Mr. Kampschroer speaks of is 
absolutely correct. Unfortunately, it falls between several 
different agencies within the Federal Government, which makes 
it very difficult to try and work those things out.
    But there are other groups who could also, I think, enter 
into there who can help Mr. Kampschroer work on that. It is a 
huge project. It is not going to happen overnight. I agree with 
him in terms of the difficulty and the long term look at how 
things will occur.
    But I can tell you that, and I will be rather self-serving 
when I say this, there is a group called the Institute of Real 
Estate Management which provides the preeminent designation for 
property management in the United States. It is called the CPM 
designation. I didn't hear Mr. Kampschroer suggest that they 
were helping GSA do that job or that they have contacted them. 
It is not an unfair comment or meant to disagree with Mr. 
Kampschroer. I just think there are other groups in the private 
industry who do this on a day to day basis.
    Typically, I find private industry manages real property 
better than some of the governmental agencies with which I have 
done work. I just shake my head because I don't understand how 
they do it. I am not sure that is the case with GSA. My 
experience has not been with GSA, in fairness to Mr. 
Kampschroer. It has been with State agencies.
    Mr. Carnahan. I would be interested in getting more 
information about that program and also seeing if there are 
ways the Government can learn from what you are doing in the 
private sector.
    Mr. Helsel. We will make sure you get the information.
    Mr. Carnahan. Thank you very much. Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Carnahan.
    Mr. Crawley, you may recall that my interest is in making 
GSA not even a leader, but the leader. The Government, it seems 
to me, can't go about telling everybody else what to do if it 
owns a comparable set of buildings and isn't doing it itself. 
So I would like to ask you whether in your coordination with 
GSA you find that the goal of the Government through the GSA, 
speaking only to the GSA, is to exceed private sector standards 
in the statute and in practice? Or are we simply trying to meet 
them? Or are we even trying to meet them?
    Mr. Crawley. In our work with GSA, we very much have seen 
that they are looking to get the best results that they can 
within the constraints provided.
    Ms. Norton. Mr. Crawley, that is what everyone is trying to 
do. I am asking about goals. I am not asking are they achieving 
them. They are limited in part by what we give them in funds 
and the rest. But we have got a statute here that says, Mr. 
Helsel, there are certain kinds of things you ought to be doing 
now. You have got the GSA. All you have to do is look at both 
of them. I am asking are the goals of the GSA to exceed Mr. 
Helsel's standards or not?
    Mr. Crawley. Yes, they are.
    Ms. Norton. It seems to me that Mr. Helsel, who was a 
leader and whose realtors have been leaders, ought to be trying 
to catch up with GSA. That is what the Subcommittee is going to 
be looking to see. The standard you are setting has to look at 
the office building sector all over the Country, for example.
    Is it not true that office building sector is more 
responsible for our carbon footprint than any other part?
    Mr. Crawley. It is the largest part of the commercial 
building sector.
    Ms. Norton. No, I am saying commercial buildings as opposed 
to residential buildings and cars. Which creates the biggest 
carbon footprint?
    Mr. Crawley. Currently, the residential sector and the 
commercial sector are about equal, both around 20 percent.
    Ms. Norton. We are the largest in the commercial building 
sector?
    Mr. Crawley. Yes.
    Ms. Norton. Now, that means we have an enormous capacity 
because we are now tipping into more leasing than owning. We 
have enormous capacity, beyond what Mr. Kampschroer is trying 
to do with his own inventory, to change the Country. The gold 
standard for leases is to get yourself Federal lease.
    I ought to first ask Mr. Kampschroer, to what extent does 
leasing require the standards that we have set for ourselves in 
our own inventory as an item in the RFP, which the GSA uses in 
deciding who rehabilitates, who constructs, et cetera?
    Mr. Kampschroer. I mentioned earlier that beginning in 2010 
we will require every building that we move into greater than 
10,000 square feet to have an ENERGY STAR rating within the 
most recent year of operation.
    Ms. Norton. Say that again. By when?
    Mr. Kampschroer. By 2010.
    Ms. Norton. That we construct?
    Mr. Kampschroer. That we lease.
    Ms. Norton. That we lease?
    Mr. Kampschroer. Yes, every building over 10,000 square 
feet that we lease. There are a few exceptions that are 
specific in the law. But we have been out publicizing that 
relatively new requirement.
    Ms. Norton. And that means that those buildings will have 
to have what?
    Mr. Kampschroer. An ENERGY STAR rating, which means that 
they would have to submit information to the Department of 
Energy and be certified by a professional engineer. It means 
that they would be in the top 25 percent of efficiency for 
buildings that are available in the private sector.
    That is a significant change because in this Country, 
unlike many developed countries, the standard is not to 
submeter electrical costs to the tenant. Here it is just sort 
of lumped into the overall rent rate. In most of Europe, 
Australia, New Zealand, Canada, and Japan, the tenants actually 
pay directly for the electrical cost and there is a different 
kind of relationship that you develop with the tenant as the 
result of that. What the ENERGY STAR rating does is it starts 
to put us on a similar kind of footing where both we and the 
tenant are motivated to make changes.
    I should also note, too, that if you compare GSA's current 
inventory, even before the effects of the Recovery Act, our 
inventory operates at about 26 percent less energy consumption 
than the commercial comparables. This is in large part due to 
the long standing emphasis on energy conservation, certainly 
since the late 1970s, that has been in law. That has affected 
our decisions and also the investment that the Government has 
made in energy conservation activities over time.
    Ms. Norton. Indeed. As I noted in my opening statement, GSA 
is new to energy conservation. But with Mr. Helsel at the same 
table with Dr. Crawley, who deals not only with our public 
sector but of course with our private sector, you see here an 
owner that moved ahead of the breakthrough energy bill. I know 
that your office deals perhaps primarily with the private 
sector in not only homes but office buildings, Mr. Helsel, but 
have you had any relationship with the Department of Energy 
programs? Do you know about those programs?
    Mr. Helsel. I have not personally had any. I know the 
National Association of Realtors has put together some 
pamphlets and some training pieces of material that are good 
for the consumer. In fact, I mentioned them. Somewhere inside 
of my testimony, I mentioned where we have actually worked with 
the Department of Energy to help educate the public on how they 
could reduce energy costs and things like that. So that is the 
extent of what I can tell you now in relation to what we have 
done with the Department of Energy.
    Ms. Norton. Mr. Crawley, would you indicate what kind of 
relationship your office would have with a typical building 
owner in the local jurisdictions across the United States?
    Mr. Crawley. With a typical building owner, we don't have a 
lot of direct activity. We have been working with a number of 
organizations through our energy alliances. The Commercial Real 
Estate Energy Alliance, with which GSA and Mr. Kampschroer's 
office are involved, involves over 40 organizations. The 
leading owners of commercial real estate in the Country came 
together to help us determine what research needed to be done 
but also what changes in practices and procurement we could 
help them with through specifications and other work.
    Ms. Norton. In this city, I have often had the impression, 
of course, this city may well not be typical and in fact in 
many ways it is not, that the private sector has long ago 
understood what was to be gained by energy conservation. The 
Federal Government may have had a lot to do with that, as a 
matter of fact, because of our leasing here.
    But to what extent is there a consciousness that they are 
sitting on top of some real money in the private sector if they 
are not investing in energy efficient systems? Take aside the 
recession where people can't invest in anything. Is there a 
consciousness so that you see a rapid movement on the part of 
building owners into saving themselves some money, let us say, 
since the terrible rise in energy costs here?
    Mr. Crawley. We are seeing that. The leaders in the market 
are making changes in their buildings. They are beginning to 
see energy as a real cost center that they can take advantage 
of to improve their bottom line. Even in the recession they are 
seeing it as an opportunity to save money and cut costs.
    Ms. Norton. But of course, Mr. Helsel, they don't have 
quite the funds and they can't go to the banks today to make 
the initial investment. So what do they do?
    Mr. Helsel. Well, what you just said is true. But I will 
tell you, much to Dr. Crawley's point, that now more than ever 
the private industry is looking at how we can save dollars 
everywhere. They will look at the cost savings and the benefits 
of doing something now when times are tough, when we are losing 
tenants, when we can't refinance, and do things like that. We 
are taking extra time and effort to find where we can save 
dollars. Energy is the first place we look.
    Ms. Norton. You sometimes have to do it low-tech first 
because this does take some initial investment, doesn't it?
    Mr. Helsel. You are correct. But I would say that the 
impetus on everyone, including the private sector, is as strong 
or stronger now than it ever was. If there is money to be spent 
somewhere on a building right now, one of the first places we 
look is how we can save energy.
    Ms. Norton. Mr. Uhalde, I think that people need to 
understand more about these green jobs. You, in your testimony 
on page five point, to May 2008 wages and you say that 
construction and extraction occupations pay a median hourly 
rate of $18.24 as opposed to $15.57 for all occupations. Is 
this journeyman pay you are talking about? You say research 
shows that green construction jobs may be well paying. But 
then, as you go on, you do not indicate that these rates are 
for green construction jobs. I have to assume that they are 
construction industry jobs?
    Mr. Uhalde. That is correct.
    Ms. Norton. If a person were to be trained to be an 
apprentice or a journeyman today, would that normally mean that 
those who were doing the training would incorporate some green 
training based on the way in which the Country is moving?
    Mr. Uhalde. That is correct. The building and trades and 
all the apprenticeship programs now are currently building in 
the latest aspects of green construction into those 
apprenticeships.
    Ms. Norton. Mr. Kampschroer, I apologize that you happen to 
be the face of GSA here today and so you had to take the 
scolding for the Agency. Normally, I like to not scold the 
messenger. But the responsible figure is Mr. Guerin, whom I 
personally called, not you. So I do want to indicate for the 
record that Mr. Kampschroer has no role. Although I would like 
to you come to this meeting next week because you have had to 
think beyond the obvious. It was Mr. Guerin that I personally 
called, which I why, frankly, I am angry. I personally called 
him. I don't personally call the Agency. Once in a blue moon, I 
call the staff and say would you make sure people know.
    The matter of these jobs is a personal embarrassment to me. 
We happen to be the capital city. Well, they couldn't avoid it 
if they were going to do rehabilitation, if they were going to 
build in the Federal sector. They can't avoid my jurisdiction 
so of course a lot of it is happening here.
    I don't have a lot of issues with what is being done here. 
I have every indication that the Department of Homeland 
Security in fact recognizes it has a special responsibility 
building in the lowest income section of the city. I am pleased 
with what DHS is doing there.
    But I am not pleased that there may be another mid-sized 
city like this city, like Baltimore, for example, which isn't 
getting attention now even though that is another Federal 
sector. And that is why I am very concerned. This was like six 
months ago that this bill was passed. I will not take another 
second of it. Sorry.
    Actually, GSA was here last week. I do not know why in the 
world in my haste I did not mention this, and I apologize that 
I did not, but I called before last week to indicate my serious 
concern about having to go all the way to the Speaker to say 
whatever you do, do not put any money out here and then have 
people in these cities--I know you are going to get a lot of 
money, but I have got to be able to say to women and minorities 
and other people who have not been trained that this is the 
beginning of what we are trying to do, to give you a foothold 
in the construction industry.
    We have got millions of unemployed journeymen. So 
understand where my concern is. Those are people already 
prepared to take the jobs. So they have got to be hired 
instantly, and I want them to be hired. They have been out of 
work longer than any key people here.
    So here we came up with this notion that the reason we do 
not see many of you is we have had a generation of people not 
trained. But we do have apprenticeship programs, do we not? We 
have them at the Department of Labor and, yes, even in the 
funds we have and funds in the highways part of the bill.
    We have been thoughtful enough to understand that we had an 
obligation, and I am going to see that it is met beginning 
October 1st. If they have been sitting on their hands and have 
not thought about it, we are going to help them to think. I 
cannot express enough anger than when the Chair of the 
Subcommittee calls that it does not make a bit of difference to 
get people moving, even when she indicates one approach to kind 
of start you off.
    So with apologies to you, Mr. Kampschroer, I note that 
another building that I worked to get ever since I came to 
Congress, the Department of Transportation building, is the 
only truly spanking new building here in the District of 
Columbia and it did not receive a LEED rating. I could not 
believe it. It is a massive building on M Street. So I have to 
ask you, why it is not a LEED? How can I know that everything 
being built in the United States with Federal funds by GSA will 
be LEED, including the Department of Homeland Security 
Headquarters?
    Mr. Kampschroer. The simple answer is that we signed a 
contract for the Department of Transportation building before 
we established the requirement to have leased new constructed 
buildings----
    Ms. Norton. When was the contract signed?
    Mr. Kampschroer. In 2002.
    Ms. Norton. Before you did what? I am sorry.
    Mr. Kampschroer. Before we established the requirement that 
buildings that we lease that were constructed specifically for 
the Federal Government had to meet the LEED silver standard 
after that.
    Ms. Norton. So you could not make it actually LEED, 
realizing that the standard for leasing--it is a pity, people 
are like how could you possibly be leasing this? This has 
nothing to do with you. It has to do with Congress and the way 
it appropriates money and deals with real estate. How could you 
be leasing a headquarters? You just built it. It will be there 
for eternity. But that is what you had to deal with and, 
therefore, you had to deal with the requirements.
    Okay, it could be a LEED building. But you have long 
experience in energy conservation. It seems to me it ought to 
be pretty close to LEED. Is it or is it not, the DOT building?
    Mr. Kampschroer. My understanding from the people who 
constructed the building is that it is close to a LEED 
certification. What has not happened is the documentation 
necessary to know exactly what that is.
    Ms. Norton. I am sorry. You said what?
    Mr. Kampschroer. My understanding is that it is close to a 
LEED certification but we do not have the documentation to know 
for sure. What we are doing with leasing, and especially with 
agencies here, we have, for example, the EPA buildings in 
Crystal City. The two buildings there are both LEED gold. We 
have, in fact, more LEED certifications of various levels in 
buildings that we lease than in buildings that we own to date.
    Ms. Norton. Say that again.
    Mr. Kampschroer. We have more buildings that are leased 
that are LEED certified at various levels than buildings that 
we own.
    Ms. Norton. Because they are newer?
    Mr. Kampschroer. In many respects. They can operate a 
little bit more quickly than Federal construction can. But they 
both have the same requirements right now.
    Mr. Norton. Mr. Kampschroer, some building manager, 
somebody has got to know how much of what conserves energy is 
in that building. I am sure there are some things in this 
building. I would like within 30 days to know what the energy 
conservation features of the DOT building are. I would like to 
know whether or not you could go back and see if the building 
could be LEED certified. Based on your prior experience, you 
already understood, GSA, what should go in the building. I need 
to know how energy efficient this brand new building is, which 
is a headquarters building.
    It cannot move out of the District. We are going to be in 
there for perpetuity just like the Justice Department, and I 
need to know how close it comes to being a LEED building and 
what its basic features for energy conservation are.
    Mr. Kampschroer. I would be happy to provide that.
    Ms. Norton. What are the staffing goals? We have heard 
about your office and you seem deeply knowledgeable. If we are 
serious about your office, you will need staff. What are the 
planned staffing levels?
    Mr. Kampschroer. The current planned staffing levels, we 
are in fact classifying and recruiting even as we speak, are to 
have approximately seven or eight people in addition to myself 
focused on the Government-wide responsibilities and four or 
five people focused on the GSA responsibilities relating to 
high-performance green buildings.
    Mr. Norton. I do not know how to judge that. How many 
people are in the office now?
    Mr. Kampschroer. Three.
    Ms. Norton. Had you worked in this field before?
    Mr. Kampschroer. Yes. Actually, prior to this job I was 
working with the energy programs of GSA, as well as the 
environment programs and the research program within GSA, which 
is modest applied research focused on those things that are not 
within the ambit of the Department of Energy or anyone else 
doing major research. Before that, I was the research director 
of GSA and worked on development of some basic research into 
how buildings affect human performance. For that I worked in 
the Office of Portfolio Management, sort of the basic asset 
management functions of the agency.
    Ms. Norton. I appreciate that the Agency, particularly 
because this has all occurred before it has a new head 
confirmed, has put into the office someone like yourself who 
has deep background in this area.
    Would we even consider building a courthouse today that was 
not LEED certified?
    Mr. Kampschroer. We would not. It has been a requirement 
since 2000 that, beginning with buildings in 2003, they be LEED 
certified. Today the requirement is LEED silver.
    Ms. Norton. Mentioning gold and silver, what did you say?
    Mr. Kampschroer. The requirement today is that the minimum 
requirement is LEED silver and every contract has an expressed 
goal of achieving LEED gold.
    Ms. Norton. What is the difference in savings to the 
Government ultimately, roughly speaking? Maybe this is to Mr. 
Crawley as well.
    Mr. Kampschroer. Roughly speaking, based on that study that 
I mentioned earlier, we can expect savings for gold and 
platinum ratings to be roughly double those for certified, 
which is the lowest level.
    Ms. Norton. Are they so much more costly that you would not 
almost automatically do them? Let us take the Department of 
Homeland Security, since we are going to be there. We are going 
to be at the Department of Transportation forever even though 
it is a leased building so imagine how long we are going to be 
at the old Saint Elizabeth site. Why would we not want to go 
platinum knowing that that will be outstripped in our lifetime 
and that the savings are already calculable even though it 
means somewhat greater investment now? Indeed, how much greater 
investment is there, relatively speaking? So much so that it 
becomes a real factor or not, a factor considering the savings 
and the payback?
    Mr. Kampschroer. A platinum building, you can certainly 
measure the additional cost. At the silver level, you can, with 
good integrated design, achieve the benchmark goal within a 
typical building budget. It is a question of applying those 
resources effectively and using the kind of integration of 
systems, technologies, sitings, and building use.
    Ms. Norton. When you say effectively, what do you mean? Do 
you mean that it is such a high level of expertise or skill 
level that it would be difficult?
    Mr. Kampschroer. Integrated design is something that the 
profession got away from in the 1950s, 1960s, 1970s, 1980s, and 
even 1990s. So what you had delivered in this Country, by and 
large, were buildings that were designed in stovepipes. 
Mechanical engineers would typically say it does not matter, 
you can design the building any way you want and we will build 
you a mechanical plant that will cool the building. Of course, 
we ended up creating sick building syndrome by that kind of 
thinking.
    So what is really needed here is a reapplication of things. 
Let us say Michelangelo knew that everything relates to 
everything else and the decisions you make on the envelope, on 
the way the building faces, and on how you move in and out of 
the building have a long term effect on how healthy the 
building is but also on how well it performs. And that form of 
integrated design is something that is coming back into play. 
But we do not see it all the time. You can look around the 
Country and not see it in private sector buildings that are 
being built. So it is still the minority way buildings are 
being put up.
    Ms. Norton. Well, when you have an opportunity to build 
three buildings for the Department of Homeland Security, is 
there any case to be made for anything other than platinum?
    Mr. Kampschroer. It is a balancing act of cost and 
performance at the platinum level.
    Ms. Norton. How much? I need to know. Maybe Mr. Crawley can 
answer as well. Since we know the payback can be very 
substantial and the building is going to be there forever, what 
percentage more? Is it 15 percent more to construct a platinum 
building? Is it 50 percent more? Give me just some rough 
ballpark figure between you and Mr. Crawley that you can agree 
on.
    Mr. Kampschroer. Platinum buildings are pretty few and far 
between right now, so I am not sure that we have----
    Ms. Norton. What is a platinum? To be platinum, what would 
you have to have?
    Mr. Kampschroer. You would have to have everything working 
together in the building to the maximum extent.
    Ms. Norton. Everything has to be----
    Mr. Kampschroer. One building I am familiar with that is 
platinum, actually we have one building in our inventory which 
is an existing building that was retrofitted under the existing 
building program. It is actually the first platinum building in 
the Country. It is an FBI field office in Chicago. The other 
one is the Genzyme office building in Cambridge, Massachusetts. 
I am going to give you the Genzyme one because I have 
physically been through it and it comes to mind. The Genzyme 
building, compared to a typical specification office building 
in Cambridge, Massachusetts, was about almost 30 percent 
premium.
    It was worth it to the company because they are a niche 
developer of pharmaceuticals and their niche is they develop 
the pharmaceuticals for illnesses that have a relatively small 
population. So you are talking about a drug with a lot of 
benefit but maybe to only 10,000 people. So that is their 
niche.
    They have a very strong human focus and so they did a lot 
of things. There is a very large atrium that goes all the way 
down through the middle of the building that cascades light 
through the building, So you have 100 percent of the building 
that is day-lit. In a standard commercial office building that 
would be considered floor space that was an opportunity that 
was lost. So you have a significant cost premium associated 
with that. They have operable windows throughout the building 
that are tied into the control system and a double facade since 
this is in Cambridge, Massachusetts. Again, double the cost for 
the facade but with significantly greater performance. It does 
pay out in the total life cycle cost of the building but this 
is really pushing all of the technology pretty much to the 
extreme there. That is the kind of example.
    As we are going forward on Saint Elizabeth's, we are 
pushing the developers and the designers of that site to give 
us the maximum amount within the budget. We are looking to 
improve considerably from even the original concept. There are 
a lot of creative things already being done with the site with 
water management on the site, with low impact development 
around it, with the way that the roof is treated and the way 
the water is handled on the roof, and a variety of other 
things. I am sure we would be happy to give you more details on 
where we are today. But we are also pushing them to deliver the 
maximum that the budget will allow.
    Ms. Norton. I very much appreciate it. Is gold next down 
from platinum?
    Mr. Kampschroer. Yes.
    Ms. Norton. Is this going to be a gold building?
    Mr. Kampschroer. I would hope so. That is the goal for the 
building. The developer of the EPA site has gone on record 
saying he can deliver a gold building for the market comparable 
rates. So I think that is a very reasonable goal for the 
building.
    Ms. Norton. It is very gratifying to hear. I want to ask my 
questions for the others here.
    I have a question for Mr. Uhalde on women. When I went to a 
meeting on another subject during the time that the stimulus 
was being considered, there was a huge gathering--I do not 
recall the purpose--of women from across the Country. Before a 
few Members of Congress were introduced, the person who was 
introducing the event said that we were doing a stimulus 
package in the Congress and they did not have any indication 
that women will get any of these jobs. I was glad I was there 
because I indicated that there would be certainly a small 
amount in my package, a larger amount in your Department's 
package, and that the Administration was fully aware that women 
and minorities had been left out of the growth of the sector.
    In your testimony, you mention a specific program aimed at 
women. Because if minorities are left out, women are a real 
afterthought in construction. So would you describe that 
program for us, please?
    Mr. Uhalde. Yes. We have Women in Apprenticeship in Non-
Traditional Occupations programs, $1 million. We focus it on 
apprenticeships and try and ensure with the grantees--I believe 
we have five or six grantees--that women are able to get the 
training, get the pre-apprenticeships and into apprenticeship 
programs principally in the building trades.
    We also had $750 million of competitive grants for both 
green training and health care and high growth occupations. 
Secretary Solis is very interested in making sure the 
populations that are left out of high growth occupations get a 
shot, and that includes women in non-traditional occupations. 
So we put out the solicitations for grant applications and made 
emphasis on populations that had been left out traditionally, 
including minorities, school dropouts, and veterans populations 
that are under served in some of these, and women as well.
    Ms. Norton. Thank you. You really do have a haul of money 
and I know you will be careful in the way you spend it. I think 
you have most of the money for these green jobs and I am 
pleased with the thoughtfulness you are inclined to in this 
area. The Administration is going to be watching this very 
closely.
    Mr. Uhalde. Absolutely.
    Ms. Norton. Mr. Kampschroer, we had a hearing in May of 
2008 where we questioned GSA about, and it surprised us, energy 
inefficient products on the GSA's schedules. What is the status 
of those products being removed from the schedules? We know 
that occasionally an agency may have no choice but we are 
talking about products. So I am assuming that these are 
products where there might be a choice. Where are we on that so 
that agencies cannot have the choice of making the taxpayers 
spend more money for energy where there is an available energy 
efficient selection for them?
    Mr. Kampschroer. There have been new guidelines recently 
issued by the Department of Energy addressing that very issue 
that you raise of choice and when you should make it and when 
you should not.
    Ms. Norton. When should you ever make it unless your 
infrastructure requires you to make it?
    Mr. Kampschroer. That is the idea. That is only where you 
cannot use the other materials. But what we have done 
internally is we have, first of all, highlighted the electronic 
version of all the schedules so all of the energy efficient 
products appear with a separate kind of designation within the 
schedules. They are segregated. They are the ones that pop up 
first when you look for them.
    And second of all, we have instituted in the online 
ordering system within GSA a warning so that if somebody 
inadvertently orders something for which there is a more energy 
efficient product, it says you should not be ordering this. Did 
you know that there is a law that----
    Ms. Norton. That actually is so excellent and so un-
government-like and so un-GSA-like that somebody says oops. 
That is what you expect Mr. Helsel to do. Thank you. Yes.
    Mr. Kampschroer. The third thing I wanted to mention is 
that we are working with the Department of Energy and EPA so 
that our database of scheduled items has a direct feed from 
their database of approved items so that when we get the ENERGY 
STAR designation, we know that it is the most up-to-date 
designation of those. In fact, we are meeting with Department 
of Energy next week to keep that project going. Then, when that 
happens, you know that you can be assured that it is not some 
supplier alleging that it is an ENERGY STAR device, that it 
actually is and we know that from the source.
    Ms. Norton. That is really giving the priority that the 
Subcommittee, the Speaker, the House, the Senate expected. I am 
very pleased to hear that.
    I must ask Mr. Crawley about net zero energy building. I do 
not understand what that means.
    Mr. Crawley. A net zero energy building is a building that 
produces on-site as much energy as it needs over the course of 
a year.
    Ms. Norton. Now we are talking.
    Mr. Crawley. It is the next generation beyond platinum.
    Ms. Norton. That is heaven.
    Mr. Crawley. It will help us get a long way toward the goal 
of really reducing the impacts and----
    Ms. Norton. Now I recognize that. What is the largest 
building like that in the United States?
    Mr. Crawley. The largest one I know of is about 18,000 
square feet.
    Ms. Norton. That is the wave of the future, people. Make 
your own. I am sorry, go ahead.
    Mr. Crawley. There are very few buildings and they are 
pretty expensive right now. But somebody is paying for them and 
thinks it is cost-effective.
    Ms. Norton. What is it, kind of a pilot or experimental?
    Mr. Crawley. They may be a pilot, experimental or they have 
found a donor that thinks it is a worthwhile investment over 
the life of that building.
    Ms. Norton. So where are we? This is the kind of stuff we 
should have been experimenting with a generation ago. I concede 
that we did not know very much. One of the big surprises to me 
is that our science, which is usually so advanced beyond what 
we are able to do, seems not to have been where I might have 
expected it to be. I know this is fairly futuristic but I do 
not see another way to go. I can see no way to be serious about 
climate change going the way we are going.
    I went with the Speaker to India. We did not go there 
about, for example, their nuclear issues or Pakistan. This was 
when we first came into the majority. We went there about 
climate change. I tell you, they already have goals for a 
carbon footprint that will come nowhere near ours. We went 
there to speak to the Chinese. Imagine, having the people who 
created the carbon footprint that is destroying the planet 
coming to these two countries and saying why don't you all do 
your share. It was hard for me to get the words out of my 
mouth, particularly at a time when we had not even passed our 
energy bill, the first one that we passed.
    So as I think about the position that we are all in--that 
that would require sacrifice, that it really ought to be you 
first in Europe and then we will see what we can do instead--
China and India are ahead of us in part because what they are 
bringing online is necessarily more inefficient. They have the 
benefit of the science of today.
    But there is just no way to avoid our leadership role given 
our role in creating the problem in the first place. So looking 
at it, that is why I have been so interested in what Mr. 
Kampschroer and Mr. Crawley are doing and what feeds in to what 
you are doing.
    Short of a shortcut through technology that will say okay, 
everybody one, two, three, sacrifice, I do not see that 
mentality even in the most advanced thinking about greening. In 
fact, I see the kind of mentality I see in the health care 
bill, which is everybody is going to get everything you get now 
and even more, and then we are going to put some more people 
into the mix and it is not going to cost the Government any 
more and there will be no deficit. I just think that is the 
kind of thinking that builds up in the world in which there are 
endless resources.
    It took a long time for it to click in that we do not have 
it. Well, the Malthusian notion we would reproduce ourselves 
did not come true. I believe putting as much in technology as 
we can is the only serious answer to short-cutting our problems 
on the planet before it disappears.
    I have only a couple more questions. At the same time I am 
trying to green the capital region because of the GSA 
footprint, the District of Columbia, one little city, is doing 
a lot on its own. We have 98 million square feet in the 
national capital region. It is a pretty progressive region.
    Are there efforts to coordinate with these folks who can 
build upon this? They help us and we help them, not with money 
but how we play off of one another?
    Mr. Kampschroer. Indeed, there are. One of the areas that 
we are working with the District of Columbia in is stormwater 
management. We are, jointly, after the significant flooding 
along Constitution Avenue in front of the IRS. We have been 
working with them to find out A, why did that happen so 
cataclysmically, and B, what can we do about it. We have 
jointly funded a study which is about to begin to figure out 
the appropriate solution to that.
    We are looking at all of our projects to increase the 
ability to do stormwater management. In fact, we have 400,000 
square feet of planted roofs within the District of Columbia 
already and over 1 million square feet in the Washington 
metropolitan region. We are working with the District of 
Columbia on aspects of building technology so that we make sure 
that we share the information that we develop in building 
technology with the District of Columbia and vice versa. I am 
sure there are others that I just----
    Ms. Norton. I know. I would like to ask that with COG, 
Council of Governments, there be some coordination to take 
advantage of the progressive jurisdiction where at least the 
national capital region is situated.
    Let me say to you, Mr. Kampschroer, I would ask you to look 
at this and get back to me within thirty days. The Federal 
Government is the biggest ratepayer for water in the District 
of Columbia. The District of Columbia has just passed a bill, 
actually some months ago, that is just the way the Country 
ought to be going. It says that if you have an impervious 
surface so that your runoff flows into the Anacostia River out 
to the Chesapeake Bay and into our waters, there is going to be 
a surface charge. For most homeowners, this is not anything 
they can do anything about and must contribute to. This is 
aimed at big folks like the Federal Government and office 
buildings.
    There are a lot of things you can do around your, let us 
say, parking lot besides repave it, for example, just to catch 
the water. But we believe, based on the charges that the 
District of Columbia has begun--the rebate schedule and all has 
not come out yet--that the Federal Government would have at 
least $1 million more to pay for impervious surfaces such as 
parking lots, outer Federal buildings, and the like.
    Here is an area where there has not been much reason to 
look before. But I would ask you to be in touch with those--I 
am sure there are people at GSA who are already aware of this--
and in 30 days give me some idea of how you believe the Federal 
Government could keep from being the biggest payer into this 
charge for impervious surfaces.
    Mr. Kampschroer. I would be happy to do so.
    Ms. Norton. In the 2009 conference report for the Financial 
Services appropriation where the GSA appropriation is found, I 
included a proposal to study the measurable benefits associated 
with green roofs in the GSA owned and leased inventory. We used 
the national capital region because of the huge footprint here. 
Could you give us the status of that study?
    Mr. Kampschroer. I cannot because I cannot remember it off 
the top of my head. If I could get back to you, I would 
appreciate it.
    Ms. Norton. In thirty days, if you would, Mr. Kampschroer, 
get back to me.
    Here is my final question. I am interested in these energy 
performance contracts. Would you describe what an energy 
performance contract is and whether or not GSA has them? What 
is the average amount that we might reap from such contracts? I 
do not know if Mr. Helsel has any information on these. He is 
saying no. But I believe you have some energy performance 
contracts that work.
    Mr. Kampschroer. Yes, we do. We have at the moment 52 
active energy savings performance contracts either directly 
with private firms or with utilities, as well as 14 that have 
been completed already and have been paid off.
    Ms. Norton. I am sorry. Would you repeat that please?
    Mr. Kampschroer. I would be happy to. We have currently 
active 52 energy savings performance contracts. We have 14 
where they are no longer active because the work has been done 
and the investment has been paid off.
    Ms. Norton. Where are they located? Across the United 
States?
    Mr. Kampschroer. Across the United States. Several of them 
are here in this area.
    Ms. Norton. Have you described what an energy performance 
contract is?
    Mr. Kampschroer. I am sorry. I just jumped into the 
statistics. The energy performance contract is a contract for a 
long period of time in which private capital is brought to bear 
to increase the energy performance. The payment to the firm 
that invests the private capital is made out of the difference 
between the energy bill before the capital investment and the 
energy bill afterwards. So the savings from reduced energy 
consumption pay back the capital investment as well as the 
operating costs of the building.
    Ms. Norton. Are those generally available across the United 
States?
    Mr. Kampschroer. They are available across the United 
States. We principally use the Department of Energy Super ESPC 
program. As well, we are increasing the GSA schedules to have 
those kinds of features. There are also private sector energy 
savings performance contracts in some areas of the Country. But 
it is less prevalent outside the Government than it is in the 
private sector, and more prevalently offered by utility firms 
where the public utilities commission has provided that 
capability with the utilities to do so.
    Ms. Norton. I am just trying to figure out why we would not 
have them in our buildings in the regions.
    Mr. Kampschroer. We do have them across the Country. We are 
currently negotiating several even as we speak. We are also----
    Ms. Norton. So wherever there is a possibility to have an 
energy performance contract, we will engage in such contracts?
    Mr. Kampschroer. Yes. Our plan is to significantly expand 
our use of energy savings performance contracts. We had that 
plan developed before the Recovery Act and we have honestly 
shifted our emphasis onto making sure that the Recovery Act 
expenditures go quickly. But we are also looking at the 
possibility for making sure that in a building where we are 
doing the building tune up only, we are looking at the 
possibility of using an energy savings performance contract for 
doing other systems work in the building so that we will get 
more for that building than we are even able to get from the 
Recovery Act funds directly.
    Ms. Norton. That is an important add-on to make sure that 
this is sustainable for the funds we invest.
    As you can see, these hearings for me are perhaps a little 
atypical. I use them to really educate myself about areas. I 
find myself kind of a generalist--most Members are--not having 
deep knowledge about even this area that I have been conversant 
with ever since coming to Congress. So your testimony has been 
very important to my oversight, to giving me indications of the 
kinds of things I ought to be doing to be helpful.
    I want to thank each and every one of you for the time you 
have spent with us this afternoon and to say to you how helpful 
you have been. So thank you very much.
    The hearing is adjourned.
    [Whereupon, at 5:00 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1111.006
    
    [GRAPHIC] [TIFF OMITTED] T1111.007
    
    [GRAPHIC] [TIFF OMITTED] T1111.008
    
    [GRAPHIC] [TIFF OMITTED] T1111.009
    
    [GRAPHIC] [TIFF OMITTED] T1111.010
    
    [GRAPHIC] [TIFF OMITTED] T1111.011
    
    [GRAPHIC] [TIFF OMITTED] T1111.012
    
    [GRAPHIC] [TIFF OMITTED] T1111.013
    
    [GRAPHIC] [TIFF OMITTED] T1111.014
    
    [GRAPHIC] [TIFF OMITTED] T1111.015
    
    [GRAPHIC] [TIFF OMITTED] T1111.016
    
    [GRAPHIC] [TIFF OMITTED] T1111.017
    
    [GRAPHIC] [TIFF OMITTED] T1111.018
    
    [GRAPHIC] [TIFF OMITTED] T1111.019
    
    [GRAPHIC] [TIFF OMITTED] T1111.020
    
    [GRAPHIC] [TIFF OMITTED] T1111.021
    
    [GRAPHIC] [TIFF OMITTED] T1111.022
    
    [GRAPHIC] [TIFF OMITTED] T1111.023
    
    [GRAPHIC] [TIFF OMITTED] T1111.024
    
    [GRAPHIC] [TIFF OMITTED] T1111.025
    
    [GRAPHIC] [TIFF OMITTED] T1111.026
    
    [GRAPHIC] [TIFF OMITTED] T1111.027
    
    [GRAPHIC] [TIFF OMITTED] T1111.028
    
    [GRAPHIC] [TIFF OMITTED] T1111.029
    
    [GRAPHIC] [TIFF OMITTED] T1111.030
    
    [GRAPHIC] [TIFF OMITTED] T1111.031
    
    [GRAPHIC] [TIFF OMITTED] T1111.032
    
    [GRAPHIC] [TIFF OMITTED] T1111.033
    
    [GRAPHIC] [TIFF OMITTED] T1111.034
    
    [GRAPHIC] [TIFF OMITTED] T1111.035
    
    [GRAPHIC] [TIFF OMITTED] T1111.036
    
    [GRAPHIC] [TIFF OMITTED] T1111.037
    
    [GRAPHIC] [TIFF OMITTED] T1111.038
    
    [GRAPHIC] [TIFF OMITTED] T1111.039
    
    [GRAPHIC] [TIFF OMITTED] T1111.040
    
    [GRAPHIC] [TIFF OMITTED] T1111.041
    
    [GRAPHIC] [TIFF OMITTED] T1111.042
    
    [GRAPHIC] [TIFF OMITTED] T1111.043
    
    [GRAPHIC] [TIFF OMITTED] T1111.044
    
    [GRAPHIC] [TIFF OMITTED] T1111.045
    
    [GRAPHIC] [TIFF OMITTED] T1111.046
    
    [GRAPHIC] [TIFF OMITTED] T1111.047
    
    [GRAPHIC] [TIFF OMITTED] T1111.048
    
    [GRAPHIC] [TIFF OMITTED] T1111.049
    
    [GRAPHIC] [TIFF OMITTED] T1111.050
    
    [GRAPHIC] [TIFF OMITTED] T1111.051
    
    [GRAPHIC] [TIFF OMITTED] T1111.052
    
    [GRAPHIC] [TIFF OMITTED] T1111.053
    
    [GRAPHIC] [TIFF OMITTED] T1111.054
    
    [GRAPHIC] [TIFF OMITTED] T1111.055
    
    [GRAPHIC] [TIFF OMITTED] T1111.056
    
    [GRAPHIC] [TIFF OMITTED] T1111.057
    
    [GRAPHIC] [TIFF OMITTED] T1111.058
    
    [GRAPHIC] [TIFF OMITTED] T1111.059
    
    [GRAPHIC] [TIFF OMITTED] T1111.060
    
    [GRAPHIC] [TIFF OMITTED] T1111.061
    
    [GRAPHIC] [TIFF OMITTED] T1111.062
    
    [GRAPHIC] [TIFF OMITTED] T1111.063
    
    [GRAPHIC] [TIFF OMITTED] T1111.064
    
    [GRAPHIC] [TIFF OMITTED] T1111.065
    
    [GRAPHIC] [TIFF OMITTED] T1111.066
    
    [GRAPHIC] [TIFF OMITTED] T1111.067
    
    [GRAPHIC] [TIFF OMITTED] T1111.068
    
    [GRAPHIC] [TIFF OMITTED] T1111.069
    
    [GRAPHIC] [TIFF OMITTED] T1111.070
    
    [GRAPHIC] [TIFF OMITTED] T1111.071
    
    [GRAPHIC] [TIFF OMITTED] T1111.072
    
    [GRAPHIC] [TIFF OMITTED] T1111.073
    
    [GRAPHIC] [TIFF OMITTED] T1111.074
    
    [GRAPHIC] [TIFF OMITTED] T1111.075
    
    [GRAPHIC] [TIFF OMITTED] T1111.076
    
    [GRAPHIC] [TIFF OMITTED] T1111.077
    
    [GRAPHIC] [TIFF OMITTED] T1111.078
    
                                    

</pre></body></html>
